<html>
<title> - REID-KENNEDY BILL: THE EFFECT ON AMERICAN WORKERS' WAGES AND EMPLOYMENT OPPORTUNITIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
REID-KENNEDY BILL: THE EFFECT ON AMERICAN WORKERS' WAGES AND EMPLOYMENT 
                             OPPORTUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 29, 2006

                               __________

                           Serial No. 109-129

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-655                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                            AUGUST 29, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, Committee 
  on the Judiciary...............................................     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     2
The Honorable John N. Hostettler, a Representative in Congress 
  from the State of Indiana, and Member, Committee on the 
  Judiciary......................................................     4

                               WITNESSES

Dr. Steven Camarota, Director of Research, Center for Immigration 
  Studies
  Oral Testimony.................................................     7
  Prepared Statement.............................................     8
Mr. Ricardo Parra, Midwest Council of La Raza
  Oral Testimony.................................................    15
  Prepared Statement.............................................    17
Dr. Vernon Briggs, Professor of Industrial and Labor Relations, 
  Cornell University
  Oral Testimony.................................................    31
  Prepared Statement.............................................    33
Dr. Paul Harrington, Associate Director, Center for Labor Market 
  Studies, Northeastern University
  Oral Testimony.................................................    41
  Prepared Statement.............................................    44

                                APPENDIX
               Material Submitted for the Hearing Record

Letter from the Associated Builders and Contractors, Inc., 
  submitted by the Honorable F. James Sensenbrenner, Jr., a 
  Representative in Congress from the State of Wisconsin, and 
  Chairman, Committee on the Judiciary...........................    66
Letter from the American Immigration Lawyers Association, 
  submitted by the Honorable John Conyers, Jr., a Representative 
  in Congress from the State of Michigan, and Ranking Member, 
  Committee on the Judiciary.....................................    68
Prepared Statement of the Kentucky Coalition for Comprehensive 
  Immigration Reform and the Central Kentucky Council for Peace 
  and Justice....................................................    70


REID-KENNEDY BILL: THE EFFECT ON AMERICAN WORKERS' WAGES AND EMPLOYMENT 
                             OPPORTUNITIES

                              ----------                              


                        TUESDAY, AUGUST 29, 2006

                  House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in 
Walnut Rooms 1 and 2, Evansville Auditorium and Convention 
Center, 715 Locust Street, Evansville, IN, the Honorable F. 
James Sensenbrenner, Jr. (Chairman of the Committee) presiding.
    Mr. Sensenbrenner. The Committee on the Judiciary will be 
in order and the Chair notes the presence of a quorum for the 
purposes of taking testimony.
    Before Members begin their opening statements, first let me 
welcome all of you to this fourth field hearing on the subject 
of illegal immigration. And the purpose of this series of 
hearings is to examine the challenges our Nation currently 
faces with regard to illegal immigration and the impact that 
the Reid-Kennedy Bill, passed by the Senate, will have on the 
problem if it will become law.
    I am Congressman Jim Sensenbrenner of Wisconsin, the Chair 
of the House Judiciary Committee. With us today are Congressman 
John Conyers of Michigan, who is the Ranking Democratic Member 
on the Committee; Congressman John Hostettler of Indiana, who 
is the Chair of the Subcommittee on Immigration, which since 
2003 has had 49 separate hearings on the subject of illegal 
immigration and its impact on American society and the economy; 
and Congressman Steve King of Iowa.
    This is a very emotional topic and people have strong 
opinions on both sides of the issue. I'd like to remind the 
audience before we begin this hearing and hear testimony that 
the Rules of the House of Representatives, under which this 
hearing is held this morning, specifically prohibit the 
audience expressing either approval or disapproval of what is 
said either by the witnesses or by the Members of the Committee 
when they ask questions of the witnesses.
    Now I know that there are going to be a lot of things that 
are going to be said today that all of you in the audience 
either strongly approve of or violently disagree with. But one 
of the purposes of these hearings, as well as functionality of 
our democratic system of Government, is that people have 
respect for opinions that they do not agree with. And the Rules 
of the House specifically give me as Chair the authority to 
enforce them that prohibit expressions of support or 
opposition.
    So I'd ask all of you to please do not force me to bang the 
gavel or worse, as this hearing proceeds.
    Today's hearing will focus on the effect that immigration 
has had on the wages and employment opportunities of American 
workers, and specifically the impact that the amnesty and the 
vast expansion of future immigration provided by the Reid-
Kennedy Bill would have.
    In fiscal year 2005, over a million immigrants received 
green cards allowing them to reside and work in the United 
States lawfully and permanently. And under current law, almost 
19 million immigrants will receive green cards over the next 20 
years.
    Evidence presented at a previous hearing before the 
Subcommittee on Immigration raised the possibility that current 
immigration has already adversely affected the job prospects of 
native-born Americans. Specifically, it showed that between 
March 2000 and 2004, the number of unemployed adult U.S. 
natives increased by 2.3 million, while the number of employed 
adult immigrants has increased also by 2.3 million, half of 
whom entered the United States illegally.
    Testimony also showed that occupations with the largest 
immigrant influx tended to have the highest unemployment rate 
among natives and that native-born workers who were in the most 
direct competition with the new immigrants lost jobs at the 
highest rates.
    If the Reid-Kennedy Immigration Bill were enacted into law, 
in addition to providing amnesty to an estimated 14.4 million 
illegal immigrants, it could allow an estimated 55 million 
other immigrants to enter the United States and work in a 
variety of American jobs over the next 20 years, legally.
    Additionally, the Congressional Budget Office estimates 
that even with the increases in legal immigration provided by 
the Reid-Kennedy Bill, an average of 780,000 immigrants would 
still enter illegally in each of the 10 years following its 
enactment.
    Congress would fail in its responsibility to American 
workers if it were to act on such a proposal without first 
giving full consideration to how such massive increases in 
immigration would affect the wages and job prospects of United 
States citizens and of lawfully admitted aliens who are already 
here. And that is why we are here today.
    I look forward to hearing from our panel and hope that 
their testimony will help inform lawmakers and the public on 
the impact that the expanded levels of immigration proposed by 
the Senate Bill would have on American workers.
    I would now yield to the gentlemen from Michigan, Mr. 
Conyers, for an opening statement.
    Mr. Conyers. Thank you very much, Chairman Sensenbrenner, 
and good morning to the rest of the distinguished Committee 
that's here, our excellent witnesses that have come from 
sometimes long distances, and the full room of citizens who 
have joined us for this hearing. I think that's very good and 
very commendable.
    We've had a number of these hearings within the last 6 
weeks, but the Bush Administration has been in office for 6 
years and the Republicans have controlled the Congress for over 
10 years, but we are only now holding our first hearings 
addressing the critical need to fix our broken immigration and 
border security systems. Why now? Because it is an election 
year and I think that the Majority fears losing control of the 
House of Representatives.
    The House and the Senate passed their bills on immigration 
reform and border security months ago. Under regular order, we 
should be appointing conferees and engaging in the process of 
reconciling the two bills. However, in a substantial deviation 
from normal practice, the House Republican leadership has 
instead decided to call a series of multi-Committee, multi-
State hearings on the Senate Bill. Consistently, they have 
sought great fanfare and publicity for their supposed border 
security initiatives. But consistently, they have refused to 
fund these promises and have failed to carry out the security 
measures for which they seek public acclaim.
    For example, we recently found out that the President's 
plans to deploy the National Guard to the border is far behind 
schedule and with less than half the troops deployed than the 
President promised would happen by this past June, troop levels 
will not be fulfilled on time and the extra protection the 
President promised will not be realized.
    These developments make it even more apparent that these 
immigration hearings may be described as being mostly for show 
and even worse, they may derail an opportunity for real reform. 
We have learned, for example, that four and a half years after 
9/11, the Bush Administration still does not have any control 
over the borders. We learn that the Bush Administration has 
made no effort to conduct workplace enforcement on immigration 
laws. We've learned that the Majority has rejected many 
opportunities to strengthen our borders with increased staff 
and funding for necessary security measures. And we've learned 
that the Majority has, what seems to me, no realistic plan for 
resolving the problems of 11 million unlawfully present 
immigrants.
    Now if the Bush Administration had properly secured the 
border, we would not be facing the security issues of 11 
million unknown people in our country. If the Bush 
Administration had enforced the workplace laws, we wouldn't 
have over seven million undocumented aliens working in the 
United States. If the Majority party had funded the 9/11 
Commission's recommendations on conducting proper oversight, 
this Committee would not be touring the Nation talking about 
what to do; we would be in Washington hammering out a 
compromise, as we were elected to do.
    We don't need another misguided plan to distract the 
American public from the bills that have passed the House and 
Senate. Nor do we need these road show hearings to show the 
American public that we need to do something. We all know that.
    Now is the time to go to work, get it done. We must roll up 
our sleeves and get to work on solving the problem created by 
the Bush Administration instead of spreading fear of immigrants 
and driving further wedges between our citizens.
    Mr. Chairman, I thank you for the time for making my 
opening statement.
    Mr. Sensenbrenner. Thank you.
    The Chair recognizes the Subcommittee Chair, the gentleman 
from Indiana, Mr. Hostettler.
    Mr. Hostettler. Thank you, Mr. Chairman. And I want to 
thank you, Mr. Chairman, once again for coming to Evansville, 
coming to southwest Indiana, and holding these hearings. I also 
want to welcome my colleagues, Mr. Conyers from Michigan and 
Mr. King from Iowa, to the Eighth District. I appreciate your 
willingness to take time out to come to Indiana to talk about 
this very important issue.
    This is an issue that is going to take much work and we are 
about that hard work of putting legislation in place that will 
benefit all American citizens. And this is part of that work.
    There is a sense among many Americans that the job 
opportunities they and parents once enjoyed are no longer 
available to them and their children. For those on the lower 
rungs of the economic ladder, the very availability of the 
American dream seems to be in question.
    Today, we will examine the impact immigration is having on 
these issues and what further effects the Reid-Kennedy Bill 
would have. We will hear from the authors of two studies that 
have both concluded that all of the increase in employment in 
the United States over the last few years has been attributable 
to large increases in the number of employed immigrants, while 
the number of employed natives has actually declined.
    The first study was conducted by Dr. Steven Camarota of the 
Center for Immigration Studies. Dr. Camarota analyzed Census 
Bureau data and concluded that between March 2000 and March 
2004, the number of native-born adults with jobs decreased by 
almost half a million, while at the same time the number of 
foreign-born adults with jobs increased by over 2.2 million. 
Thus, all of the almost 1.8 million net increase of adults with 
jobs went to foreign-born workers.
    The second study, also relying on census data, was 
conducted by Professors Andrew Sum and Paul Harrington and 
other researchers at the Center for Labor Market Studies at 
Northeastern University in Boston. They found that total 
civilian employment increased by over 2.3 million over the 
period from 2000 to 2004 and that the number of foreign-born 
workers who arrived in the U.S. in this period and were 
employed in 2004 was about 2.5 million. Thus, the number of 
employed native-born and older immigrant workers--and older 
immigrant workers--decreased by between 158,000 and 228,000 
over the 4 year period. The authors concluded that ``For the 
first time in the post-World War II era, new immigrants 
accounts for all the growth in employment over a 4-year period. 
At no time in the past 60 years has the country ever failed to 
generate any net new jobs for native-born workers over a 4-year 
period.''
    Both these studies yield astounding and alarming results. 
Native-born Americans have not seen an increase in employment 
in recent years. In fact, the number of jobs they hold has 
decreased. At the same time, the number of employed immigrants 
has risen substantially.
    What are the implications of these findings? I will let the 
authors of the studies relate their conclusions in detail, but 
let me quote them in summary. Dr. Camarota concludes that ``By 
significantly increasing the supply of unskilled workers during 
a recession, immigration may be making it more difficult for 
similar American workers to improve their situation.'' He also 
finds that ``The fact that immigration has remained 
consistently high suggests that immigration levels simply do 
not reflect demand for labor in the country. Immigration is 
clearly not a self-regulating phenomenon that will rise and 
fall with the state of the economy.''
    Dr. Harrington's study concludes that ``Given large job 
losses among the Nation's 20 to 24 year olds with no 4-year 
degree, Black males and poorly educated native-born men, it is 
clear that native-born workers have been displaced in recent 
years.''
    Reading these two studies, I reach the troubling conclusion 
that our Nation's immigration policy has not operated in the 
best interest of America's workers, at least over the last few 
years. It appears that the flow of immigrants, both legal and 
illegal, seems to pursue its own independent course, oblivious 
to whether we are experiencing good times or bad. For 
struggling American workers, current immigration levels can 
prove challenging during good times. In bad times, they can be 
devastating.
    The Reid-Kennedy Bill would greatly exacerbate these 
negative effects. Not only would it grant amnesty to the vast 
majority of illegal aliens currently in the United States, but 
it would add on top a guest worker program bringing in 200,000 
more unskilled foreign workers a year, and would triple legal 
immigration already at one million persons a year.
    I would like to make one final point. Congress cannot 
enforce our immigration laws.
    [Audience comment.]
    Mr. Sensenbrenner. The Committee will be in order. Would 
you please be seated.
    [Continued audience comment.]
    Mr. Sensenbrenner. May I ask law enforcement to remove the 
person from the room.
    [Continued audience comment.]
    [Audience commenter was removed.]
    [Applause.]
    Mr. Sensenbrenner. Again, the Chair would remind members of 
the audience that the Rules of the House of Representatives are 
very clear in prohibiting interruption of the proceedings, how 
the proceedings go on, with statements or comments or 
expressions either in support of opposition to any of the 
things that are said either by the witnesses or Members of the 
Committee. And the Chair will not hesitate to enforce the 
rules, as he has just done.
    The gentleman from Indiana will conclude.
    Mr. Hostettler. Mr. Chairman, under the U.S. Constitution, 
the enforcement of the laws of the United States, under article 
2 is the sole prerogative of the Administration, the executive, 
the President. To the extent that Administrations of both 
parties have, for the past 20 years, failed to enforce laws 
against the employment of illegal aliens, they have contributed 
to the current dire situation for America's workers. And that's 
why we are here today.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Sensenbrenner. I thank the gentleman.
    Let me introduce the witnesses before the Committee today. 
Vernon Briggs, Jr. is a Professor of Industrial and Labor 
Relations at Cornell University. His research has embraced such 
subjects as minority participation in apprenticeship training, 
direct job creation strategies, Chicano employment issues and 
immigration policy in the American labor force. In addition to 
the extensive publications of his research, he has served as a 
member of the National Council on Employment Policy and on the 
editorial boards of such professional journals as the 
Industrial and Labor Relations Review, the Journal of Human 
Resources, the Texas Business Review and the Journal of 
Economic Issues.
    Dr. Steven Camarota is Director of Research at the Center 
for Immigration Studies in Washington. He has testified 
numerous times before Congress and has published many articles 
on the impact of immigration in such journals and papers as the 
Social Science Quarterly, the Washington Post, the Chicago 
Tribune and National Review. Dr. Camarota writes regularly for 
the Center for Immigration Studies on a broad range of 
immigration issues, including his recent reports on labor, 
Social Security, immigration trends and border and national 
security. He holds a Ph.D. from the University of Virginia in 
Public Policy Analysis and a Master's degree in Political 
Science from the University of Pennsylvania.
    Paul Harrington is Associate Director for the Center of 
Labor Market Studies, or CLMS, and Professor of Economics and 
Education at Northeastern University in Boston. At the CLMS, 
Dr. Harrington conducts labor market research at the national, 
State and local levels on a broad range of issues including 
immigration, higher education performance, workplace 
development and youth and families. Dr. Harrington and the CLMS 
were the first to estimate the sharp increase in the number of 
undocumented immigrants during the 1990's. He has earned his 
Doctor of Education degree at the University of Massachusetts 
at Boston and holds Master's and Bachelor's degrees from 
Northeastern University.
    Ricardo Parra is a writer, who resides in Indianapolis, 
active in the civil rights movement throughout many years and a 
long time community leader and advocate. He is the past 
director of the Midwest Council of La Raza, which was based at 
the University of Notre Dame, and served a 10-State area of the 
midwest. Mr. Parra is also a past member of the Indiana 
Advisory Committee to the U.S. Commission on Civil Rights. 
Today, he works for the Social Security Administration and is a 
member of the Chicago Region Hispanic Action Committee and the 
American Federation of Government Employees, Local 3571, where 
he has served as Fair Practices Coordinator.
    It is the general practice of this Committee to swear in 
all witnesses. I would like to ask each of the witnesses to 
rise and raise your right hands and take the oath.
    [Witnesses sworn.]
    Mr. Sensenbrenner. Let the record show that each of the 
witnesses answered in the affirmative.
    Without objection, all Members opening statements may be 
included in the record at this time, and also without 
objection, the full written testimony of each of you will be 
placed in the record at the time you testify orally.
    I would like to ask each of the witnesses to confine their 
oral remarks to 5 minutes or so and the Chair will be a little 
bit flexible in enforcing when the red light goes on on the 
timers, so that Members of the Committee will have as much time 
as possible to answer questions.
    Dr. Camarota, why don't you go first.

TESTIMONY OF STEVEN CAMAROTA, DIRECTOR OF RESEARCH, CENTER FOR 
                      IMMIGRATION STUDIES

    Mr. Camarota. Mr. Chairman and Members of the Subcommittee, 
thank you for inviting me.
    When we talk about immigration and illegal aliens, the 
first point I would like to make is that it is not only silly 
to argue that illegal aliens only do jobs that American don't 
want, it's demonstrably untrue. Of the 470 occupations as 
defined by the Census Bureau, virtually none are majority 
immigrant, let alone majority illegal alien. If there really 
were jobs that only immigrants do, there should be occupations 
that are almost all immigrant. Such occupations don't exist.
    It is true that most Americans are more educated and thus 
don't compete with illegal aliens who overwhelmingly are people 
with only a high school degree or who failed to graduate high 
school. But there about 17 million native-born Americans in the 
labor force who either lack a high school education or have 
only a high school degree and work in a high immigrant 
occupation. And these are the individuals adversely affected.
    Now what's the impact of immigration on American workers? 
Well, an important recent study in the Quarterly Journal of 
Economics showed that immigration reduced the wages of all 
workers in the United States by about 4 percent in recent 
years. But for the poorest 10 percent, the reduction was about 
7 percent.
    My own research has shown that for each 1 percent increase 
in immigrant composition of a low-wage job, wages for natives 
in that occupation declined by about .8 percent. So if there 
were a 20 percent increase, that would imply that maybe wages 
are down by about 16 percent in that occupation. I should say 
if immigrants were 20 percent.
    Now lower wages for low-income workers should mean higher 
profits for employers or maybe lower prices for consumers. But 
because the poorest 10 or 15 percent of workers are paid so 
little to begin with and account for such a small fraction of 
economic output, the gains to employers or to consumers is very 
tiny; or in the words of the Nation's top immigration 
economist, the gains for America are minuscule for making the 
poor even poorer.
    Now why do illegals reduce wages? The main reason is not so 
much that they work for less. Instead, it's basic economics--
increase the supply of something, in this case less educated 
workers, you lower its price. And wages and benefits are the 
price employers pay for labor. This means that if you let 
illegal aliens stay, you have not solved the fundamental 
problem of the increase in the supply of such workers.
    Now some people think we have a labor shortage and point to 
the unemployment rate of 5 percent. However, a national 
unemployment rate of 5 percent is irrelevant to the illegal 
immigration debate because unemployment is 18 percent among 
young natives 18 to 29 years of age, who have not completed 
high school. And for Blacks in this age group without 
education, it's 35 percent. And this is as recently as May of 
this year. Unemployment is 10 percent for young natives, again 
18 to 29, with only a high school degree. And for Blacks in 
that age group, it's 16 percent. Unemployment is also 19 
percent for native-born teens, age 15 to 17, and it's 28 
percent for native-born Black teens. And these figures don't 
include the enormous growth in the number of less educated 
natives who have given up looking for work altogether and don't 
even show up now in unemployment figures. There is simply no 
evidence that we have a labor shortage at the bottom end of the 
labor market.
    Wages for workers with little education have either 
stagnated or declined. The share of such workers who were 
offered benefits like healthcare from their employers has 
declined. The share of less educated Americans who are not even 
looking for work and have left the labor force altogether, as I 
said, has risen. If there really was a shortage, employers 
should be bidding up wages and offering ever greater benefits 
packages and drawing more people into labor force. There is 
actually only one piece of evidence that that there is a labor 
shortage of less educated workers. And that is testimonials 
from employers. That's it. All the other data the Government 
collects shows exactly the opposite.
    The only way one can justify allowing large numbers of less 
educated immigrants in is if one thinks the poor in this 
country are overpaid.
    Let me make one final point. Some observers think that we 
need large scale immigration because we're an aging society and 
there won't be enough workers in the future, or even maybe now. 
But demographers, the people who actually study human 
population, agree that immigration has very little impact on 
the aging of American society. For one thing, immigrants age 
just like everyone else. In the 2000 census, the average age of 
an immigrant was 39; the average age of a native was 35. The 
Census Bureau has concluded ``Immigration is a highly 
inefficient means for changing the ratio of workers to everyone 
else.''
    Those that want to let illegal aliens stay or double or 
even triple legal immigration from its current one million a 
year, at least have to understand that what the Senate Bill 
does will come at the expense of the poorest and most 
vulnerable Americans.
    Thank you.
    Mr. Sensenbrenner. Mr. Parra, why don't you go next? Press 
the red button to turn the mic on. When you're ready, I'll push 
the button to start the timer.
    [The prepared statement of Mr. Camarota follows:]

                Prepared Statement of Steven A. Camarota

                              INTRODUCTION

    Few government policies can have so profound impact on a nation as 
immigration. Large numbers of immigrants and their descendants cannot 
help but have a significant impact on the cultural, political, and 
economic situation in their new country. Over the last three decades, 
socio-economic conditions, especially in the developing world, in 
conjunction with U.S. immigration policy, have caused 25 million people 
to leave their homelands and emigrate legally to the United States. 
Additionally, the Immigration and Naturalization Service estimates that 
the illegal alien population grows by 400,000 to 500,000 each year.\1\ 
The current influx has caused an enormous growth in the immigrant 
population, from 9.6 million in 1970 (4.8 percent of the population) to 
36.2 million (12.1 percent of the population) today.
---------------------------------------------------------------------------
    \1\ See ``Estimates of the Unauthorized Immigrant Population 
Residing in the United States: 1990 to 2000'' available at http://
www.uscis.gov/graphics/shared/statistics/publications/Ill--Report--
1211.pdf
---------------------------------------------------------------------------
    As in the past, immigration has sparked an intense debate over the 
costs and benefits of allowing in such a large number of people. One of 
the central aspects of the immigration debate is its impact on the 
American economy. While the number of immigrants is very large, as I 
will try to explain in this paper the impact on the overall economy is 
actually very small. And these effects are even smaller when one 
focuses only on illegal aliens, who comprise one-fourth to one-third of 
all immigrants. While the impact on the economy as a whole may be tiny, 
the effect on some Americans, particular workers at the bottom of labor 
market may be quite large. These workers are especially vulnerable to 
immigrant competition because wages for these jobs are already low and 
immigrants are heavily concentrated in less-skilled and lower-paying 
jobs. In this paper I will try to explain some of the ways immigration 
impacts natives and the economy as a whole.

               FIVE REASONS IMMIGRATION CAN IMPACT WAGES

    Immigrants Might Work for Less. For the most part, the research 
generally indicates that a few years after arrival, immigrant wages are 
very similar to those of natives in the same occupation with the same 
demographic characteristics. This may not be true in all places and at 
all times, but in general it seems that only newly arrived immigrants 
undercut native wages. This is probably true of illegal aliens as well. 
While immigrants as a group and illegals in particular do earn less 
than native-born workers, this is generally due to their much lower 
levels of education. In other words, immigrants are poorer than 
natives, but they generally earn wages commensurate with their skills, 
which as a group tend to be much lower than natives.
    Immigrants Are Seen as Better Employees. There is certainly a lot 
of anecdotal evidence and some systematic evidence that immigrants are 
seen as better workers by some employers, especially in comparison to 
native-born African Americans. It is certainly not uncommon to find 
small business men and women who will admit that they prefer Hispanic 
or Asian immigrants over native-born blacks. This is especially true of 
Hispanic and Asian employers, who often prefer to hire from within 
their own communities. We would expect this preference to result in 
lower wages and higher unemployment for those natives who are seen as 
less desirable.
    A study of the Harlem labor market by Newman and Lennon (1995) 
provides some systematic evidence that employers prefer immigrants to 
native-born blacks. Their study found that although immigrants were 
only 11 percent of the job candidates in their sample, they represented 
26.4 percent of those hired. Moreover, 41 percent of the immigrants in 
the sample were able to find employment within one year, in contrast to 
only 14 percent of native-born blacks. The authors concluded that 
immigrants fare better in the low-wage labor market because employers 
see immigrants as more desirable employees than native-born African-
Americans. I have also found some evidence in my work that in 
comparison to whites, there is an added negative effect for being black 
and in competition with immigrants.
    The Threat of Further Immigration. While no real research has been 
done on this question, the threat of further immigration may also exert 
a significant downward pressure on wages. To see how this might work 
consider the following example: Workers in a meat packing plant that 
has seen a sudden rise in the number of immigrant workers will very 
quickly become aware that their employer now has another pool of labor 
from which he can draw. Thus, even if immigrants remain a relatively 
small portion of the plant's total workforce, because of our relatively 
open immigration policy, the potential of further immigration exists. 
Therefore, native-born workers curtail their demands for higher wages 
in response to the threat of more immigration and this in turn holds 
down wages beyond what might be expected simply by looking at the 
number of immigrants in an occupation or even the country as a whole.
    Immigration Increases the Supply of Labor. By far the most 
important impact immigration has on the workforce is that it increases 
the supply of labor. Based on the March 2005 Current Population Survey, 
there were almost 21 million adult immigrants holding jobs in the 
United States.\2\ However, they are not distributed evenly across 
occupations. In 2005, 30 percent of immigrants in the labor market had 
no high school education, and for those who entered in the preceding 
five years, 34 percent lacked a high school degree. In comparison, only 
8 percent of natives in the work force did not have a high school 
education. Overall, immigrants comprise 15 percent of the total 
workforce. But they are 40 percent of those without high school 
diplomas in the work force, while accounting for 12 percent of workers 
with more than a high school education.
---------------------------------------------------------------------------
    \2\ Figures for 2005 are from ``Immigrants at Mid-Decade: A 
Snapshot of American's Foreign-born Population in 2005, which can be 
found at www.cis.org/articles/2005/back1405.html.
---------------------------------------------------------------------------
    The occupational distribution of immigrants also shows their high 
concentration in jobs that require relatively few skills. In 2005, 
immigrants made up 6 percent of persons in legal services occupations 
(primarily lawyers and support staff), and 9 percent of individuals in 
managerial jobs. In contrast, they comprised 34 percent of workers 
doing building clearing and maintenance, and 26 percent of construction 
laborers. This means immigration has increased the supply of the some 
kinds of workers much more than others. As a result, any effect on the 
wages or job opportunities of natives will likely fall on natives 
employed in less-skilled and low-paying occupations. Given that they 
face much more job competition, it should not be surprising that less 
educated workers generally have a less favorable view of immigration. 
In contrast, more educated and affluent workers who generally have a 
more favorable view of immigration tend to see immigrants as only 
``taking jobs Americans don't want.''
    Workers not in Competition with Immigrants. If immigration reduces 
wages for less educated workers, these wages do not vanish into thin 
air. Employers now have more money either to pay higher wages to more 
educated workers or to retain as higher profits. The National Research 
Council, in a 1997 study entitled ``The New Americans,'' estimated that 
immigration reduced the wages of workers with less than a high school 
degree by about 5 percent. These workers roughly correspond to the 
poorest 10 percent of the workforce. But this reduction caused gains 
for the other 90 percent of workers equal to one or two tenths of one 
percent of their wages. The impact on educated workers is so small 
because workers at the bottom end of the labor market earn such low 
wages that even a significant decline in their wages only generates 
very modest gains for everyone else.
    For reasons explained in greater detail in the NRC report, the 
aggregate size of the wage gains for more educated workers should be 
larger than the aggregate losses suffered by Americans at the bottom of 
the labor market, thereby generating a net gain for natives overall. 
The NRC's findings mean that the wages of workers without a high school 
degree are $13 billion lower because of immigration, while the wages of 
other natives are roughly $19 billion higher, for a net gain of $6 
billion. Of course, as a share of their income the losses to less-
educated natives are much larger than the gains to other workers. And 
as share of the total economy the gain is extremely small. The two 
Harvard economists who did the NRC's labor market analysis argued that 
the benefit to natives, relative to the nation's $8 trillion economy at 
that time, is ``minuscule.'' \3\ However, it should also be noted that 
while the effect on natives overall may be minuscule, the immigrants 
themselves benefit substantially by coming here.
---------------------------------------------------------------------------
    \3\ 3George Borjas and Richard Freeman's New York Times Opinion 
piece can be found at http://ksghome.harvard.edu/GBorjas/Papers/
NYT121097.htm .
---------------------------------------------------------------------------
    Empirical Research
    Attempts to measure the actual labor market effects of recent 
immigration empirically have often come to contrary and conflicting 
conclusions. Studies done in the 1980s and early 1990s, which compared 
cities with different proportions of immigrants, generally found little 
effect from immigration.\4\ However, these studies have been widely 
criticized because they are based on the assumption that the labor 
market effects of immigration are confined to only those cities where 
immigrants reside.
---------------------------------------------------------------------------
    \4\ Altonji, Joseph G. and David Card. 1991. ``The Effects of 
Immigration on the Labor Market Outcomes of Less-skilled Natives'' in 
John M. Abowd and Richard B. Freeman editors, Immigration, Trade and 
Labor. Chicago: University of Chicago Press.
---------------------------------------------------------------------------
  Borjas, George. 1984. ``The Impact of Immigrants on the Earnings of 
the Native-Born,'' W.M. Briggs and M. Tienda, Editors, Immigration: 
Issues and Policies, Salt Lake City: Olympus.
  Borjas, George J. 1983. ``The Substitutability of Black, Hispanic and 
White Labor. Economic Inquiry, Vol. 21.
  Butcher, Kristin F. and David Card. 1991. ``Immigration and Wages: 
Evidence from the 1980s,'' The American Economic Review Vol 81.
    Impact of Immigration Is National Not Local. The interconnected 
nature of the nation's economy makes comparisons of this kind very 
difficult for several reasons. Research by University of Michigan 
demographer William Frey \5\ and others, indicates that native-born 
workers, especially those natives with few years of schooling, tend to 
migrate out of high-immigrant areas. The migration of natives out of 
high-immigrant areas spreads the labor market effects of immigration 
from these areas to the rest of the country. There is also evidence 
that as the level of immigration increases to a city, the in-migration 
of natives is reduced.
---------------------------------------------------------------------------
    \5\ Frey, William H. 1993. Race, Class and Poverty Polarization of 
US Metro Areas: Findings from the 1990 Census, Ann Arbor, Mich.: 
Population Studies Center.
---------------------------------------------------------------------------
  Frey, William H. 1996. ``Immigration, Domestic Migration, and 
Demographic Balkanization in America: New Evidence for the 1990s,'' 
Population and Development Review. Vol. 22.
    In addition to internal migration patterns, the huge volume of 
goods and services exchanged between cities across the country creates 
pressure toward an equalization in the price of labor. For example, 
newly arrived immigrants who take jobs in manufacturing in a high-
immigrant city such as Los Angeles come into direct and immediate 
competition with natives doing the same work in a low-immigrant city 
like Pittsburgh. The movement of capital seeking to take advantage of 
any immigrant-induced change in the local price of labor should also 
play a role in preserving wage equilibrium between cities. Beside the 
response of native workers and firms, immigrants themselves tend to 
migrate to those cities with higher wages and lower unemployment. In 
short, the mobility of labor, goods, and capital as well as choices 
made by immigrants may diffuse the effect of immigration, making it 
very difficult to determine the impact of immigration by comparing 
cities.
    The National Research Council. One way researchers have attempted 
to deal with the problems associated with cross-city comparisons is to 
estimate the increase in the supply of labor in one skill category 
relative to another skill category brought about by immigration in the 
country as a whole. The wage consequences of immigration are then 
calculated based on an existing body of literature that has examined 
the wage effects of changes in the ratio of skilled to unskilled 
workers. The National Research Council (NRC) relied on this method in 
its 1997 report entitled The New Americans.\6\ The report was authored 
by most of the top economists and demographers in the field of 
immigration. The NRC estimates that immigration has had a significant 
negative effects on the wages of high school dropouts. The NRC 
concluded that the wages of this group, 11 million of whom are natives, 
are reduced by roughly 5 percent ($13 billion a year) as a consequence 
of immigration. Not a small effect. Dropouts make up a large share of 
the working poor. Nearly one out of three native workers living in 
poverty lacked a high school education. The wage losses suffered by 
high school dropouts because of immigration are roughly equal to the 
combined federal expenditures on subsidized School Lunches, low-income 
energy assistance, and the Women Infants and Children program.
---------------------------------------------------------------------------
    \6\ Edmonston, Barry and James Smith Ed. 1997. The New Americans: 
Economic, Demographic, and Fiscal Effects of Immigration, Washington 
D.C.: National Academy Press.
---------------------------------------------------------------------------
    Center for Immigration Studies Research. My own research suggests 
that the effect of immigration may be even greater than the estimates 
in the NRC report.\7\ I compared differences across occupations 
nationally and found that the concentration of immigrants in an 
occupation does adversely affect the wages of natives in the same 
occupation. My results show that immigrants have a significant negative 
effect on the wages of natives employed in occupations that require 
relatively few years of schooling, accounting for about one-fifth of 
the labor force. In these occupations, a 1 percent increase in the 
immigrant composition reduces the wages of natives by 0.8 percent. 
Since these occupations are now on average 19 percent immigrant, my 
findings suggest that immigration may reduce the wages of workers in 
these occupation by more than 10 percent. It should also be added that 
native-born blacks and Hispanics are much more likely than whites to be 
employed in the adversely impacted occupations.
---------------------------------------------------------------------------
    \7\ Steven Camarota 1998. ``The Wages of Immigration: The Effect on 
the Low-Skilled Labor Market,'' Washington D.C.: Center for Immigration 
Studies. Camarota, Steven A. 1997. ``The Effect of Immigrants on the 
Earnings of Low-skilled Native Workers: Evidence from the June 1991 
Current Population Survey,'' Social Science Quarterly, Vol. 78.
---------------------------------------------------------------------------
    Other Research on Wages. Harvard professor George Borjas, who is 
regarded as the nation's leading immigration economist, found in a 
study published in 2003 by the Quarterly Journal of Economics that 
between 1980 and 2000, immigration reduced the average annual earnings 
of native-born men by an estimated $1,700 or roughly 4 percent.\8\ 
Among natives without a high school education, who roughly correspond 
to the poorest tenth of the workforce, the estimated impact was even 
larger, reducing their wages by 7.4 percent. The 10 million native-born 
workers without a high school degree face the most competition from 
immigrants, as do the eight million younger natives with only a high 
school education and 12 million younger college graduates. The negative 
effect on native-born black and Hispanic workers is significantly 
larger than on whites because a much larger share of minorities are in 
direct competition with immigrants.
---------------------------------------------------------------------------
    \8\ For a technical version of Dr. Borjas research see http://
ksghome.harvard.edu/GBorjas/Papers/QJE2003.pdf, for a less technical 
version see www.cis.org/articles/2004/back504.html .
---------------------------------------------------------------------------
    While most of those adversely affected are less educated workers, 
Borjas's research indicates that the impact of immigration is 
throughout the labor market. The results for more skilled workers are 
particularly important because few of the immigrants in this section of 
the economy are illegal aliens, yet the effect is the same--lower wages 
for natives. This new research strongly indicates that the primary 
reason immigration lowers wages is not that immigrants are willing to 
work for less, rather lower wages are simply the result of immigration 
increasing the supply of labor.
    Impact on Employment. While most research has focused on wage 
effects of immigration, some work has also found an impact on 
employment. A 1995 study by Augustine J. Kposowa found that a 1-percent 
increase in the immigrant composition of a metropolitan area increased 
unemployment among minorities by 0.13 percent.\9\ She concludes, ``Non-
whites appear to lose jobs to immigrants and their earnings are 
depressed by immigrants.'' A 1997 report published by the Rand 
Corporation, entitled ``Immigration in a Changing Economy: California's 
Experience,'' and authored by Kevin McCarthy and Georges Vernez (1997) 
estimated that in California between 128,200 and 194,000 people were 
unemployed or withdrawn from the workforce because of immigration. 
Almost all of these individuals either are high school dropouts or have 
only a high school degree. Additionally, most are either women or 
minorities.
---------------------------------------------------------------------------
    \9\ Kposowa, Augustine J. 1995. ``The Impact of Immigration on 
Unemployment and Earnings Among Racial Minorities in the United 
States.'' Racial and Ethnic Studies, Vol. 18.
---------------------------------------------------------------------------
    Impact on Employment post-2000. More recent work done on 
immigration also suggests that immigration may adversely impact native 
employment. A report I authored for the Center for Immigration Studies 
early this year showed that only 9 percent of the net increase in jobs 
for adults (18 to 64) went to natives between 2000 and 2005, event 
though adult natives accounted for 61 percent of the increase in the 
overall size of the 16-to-64 year old population. Looking at adult 
natives with only a high school degree or less, the number of these 
less-educated natives not in the labor force, which means they are not 
working or looking for work, increased by 1.5 million between 2000 and 
2005. At the same time, the number of adult immigrants (legal and 
illegal) in the labor force with only a high school degree or less grew 
by 1.6 million. Of perhaps greatest concern, the percentage of adult 
natives without a high school degree who are in the labor force fell 
from 59.1 to 56.3 percent between 2000 and 2005 and for natives with 
only a high school degree it fell from 78.2 to 75.4 percent.\10\ In 
total there are 11.6 million immigrants in the labor force with only a 
high school degree or less, about half are illegal aliens.
---------------------------------------------------------------------------
    \10\ The report entitled ``Dropping Out: Immigrant Entry and Native 
Exit From the Labor Force, 2000-2005'' can be found at www.cis.org/
articles/2006/back206.html.
---------------------------------------------------------------------------
    Data collected since Katrina still shows no improvement in labor 
force participation for either native-born dropouts or those with only 
a high school degree. Only unemployment among native-born dropouts has 
improved, but not for natives with only a high school degree. The 
decline in less-educated adult natives (18 to 64) in the labor market 
does not seem to be the result of more parents staying home with young 
children, increased college enrollment or early retirement. The workers 
themselves are not the only thing to consider, nearly half of American 
children (under 18) are dependent on a less-educated worker, and 71 
percent of children of the native-born working poor depend on a worker 
with a high school degree or less. The findings of our 2005 employment 
study are very consistent with research on this subject. Andrew Sum and 
his colleagues at Northeastern University have also published several 
reports showing that all or almost all job growth from 2000 to 2004 
went to immigrants.
    A recent report by the Pew Hispanic Center found no consistent 
pattern with regard to native employment between states that 
experienced a large influx of immigrants and states that had relatively 
few immigrants. Two key points need to be made about this report: 
First, as already discussed, it is not at all clear that one can 
measure the impact of immigration by looking at local labor markets. 
Second, the report does not focus on trends among persons under age 30 
or 35, who have seen the biggest decline in employment in the last 5 
years. In fact, Pew only looks at workers 25 year and older. Thus many 
of he workers most effect are excluded by Pew, and the rest are lumped 
in with older workers whose employment has not declined significantly.
    Benefits of Immigration
    Of course, it is important to realize that wage losses suffered by 
the unskilled do not vanish into thin air. As already discussed, the 
NRC estimated that the gain resulting from the wage loses suffered by 
the unskilled is equal to about one or two tenths of one percent of our 
total economy. Thus, additional unskilled immigration can be justified 
on the grounds that it creates a very small net benefit for the country 
as a whole, though it is harmful for unskilled workers. There is some 
debate about the net benefit of immigration. A 2002 study published by 
the National Bureau of Economic Research (NBER), entitled 
``Technological Superiority and the Losses from Migration,'' found that 
there is no economic gain from immigration. In fact the loss to all 
natives totals nearly $70 billion dollars. But it must be remembered 
that neither the NRC study or NBER study takes into account the 
benefits to immigrants.
    Impact on an Aging Society
    Some observers think that without large scale immigration, there 
will not be enough people of working age to support the economy or pay 
for government. It is certainly true that immigration has increased the 
number of workers in the United States. It is also true that immigrants 
tend to arrive relatively young, and that they tend to have more 
children than native-born Americans. Demographers, the people who study 
human populations, have done a good deal of research on the actual 
impact of immigration on the age structure. There is widespread 
agreement that immigration has very little impact on the aging of 
American society. Immigrants age just like everyone else; moreover the 
differences with natives are not large enough to significantly alter 
the nation's age structure. This simple fact can be seen clearly in the 
2000 Census, which showed that the average age of an immigrants was 39, 
compared to 35 for natives.\11\
---------------------------------------------------------------------------
    \11\ These figures and ones on aging that follow can be found in a 
2005 report by the Center for Immigration Studies entitled, 
``Immigration in an Aging Society: Workers, Birth Rates, and Social 
Security,'' which can be found at www.cis.org/articles/2005/
back505.html .
---------------------------------------------------------------------------
    Another way to think about the impact of immigration on the aging 
of American society is to look at the working-age population. In 2000, 
66.2 percent of the population was of working-age (15 to 64), but when 
all post-1980 immigrants are not counted, plus all of their U.S.-born 
children, the working-age share would have been 65.9 percent in 2000. 
Immigration also does not explain the relatively high U.S. fertility 
rate. In 2000, the U.S. fertility rate was 2.1 children per woman, 
compared to 1.4 for Europe, but if all immigrants are excluded the rate 
would still have been 2.0. Looking to the future, Census Bureau 
projections indicate that if net immigration averaged 100,000 to 
200,000 annually, the working age share would be 58.7 percent in 2060, 
while with net immigration of roughly 900,000 to one million, it would 
be 59.5 percent. As the Bureau states in the 2000 publication, 
immigration is a ``highly inefficient'' means for increasing the 
working age share of the population in the long-run.\12\ Census 
projections are buttressed by Social Security Administration (SAA) 
estimates showing that over the next 75 years, net legal immigration of 
800,000 a year versus 350,000 would create a benefit equal to only 0.77 
percent of the program's projected expenditures.
---------------------------------------------------------------------------
    \12\ 12See page 21 of the Census Bureau's ``Methodology and 
Assumptions for the Population Projections of the United States: 1999 
to 2100.'' The report can be found at www.census.gov/population/www/
documentation/twps0038.pdf
---------------------------------------------------------------------------
    Of course, it must be emphasized that immigration does not make the 
country older. In fact, the impact is slightly positive. But, one can 
advocate less immigration secure in the knowledge that it will not 
cause the population to age more age rapidly. There is no doubt that 
the aging of the nation's population will create very real challenges. 
But the level of immigration is almost entirely irrelevant to this 
problem. America will simply have to look elsewhere to met these 
challenges.
    Policy Discussion
    Knowing that low-skilled natives are made poorer or their 
unemployment increased by immigration does not tell us what, if 
anything, we should do about it. The extent to which we take action to 
deal with the wage and employment effects of immigration depends on how 
concerned we are about the wages of less-skilled natives. A number of 
scholars have argued that the inability of low-skilled workers to find 
work and earn a living wage contributes significantly to such social 
problems as welfare dependency, family breakup, and crime. One need not 
accept all the arguments made in this regard to acknowledge that a 
significant reduction in employment opportunities for the poorest 
Americans is a cause for real concern.
    Help Workers But Leave Immigration Policy Unchanged. If we wish to 
do something about the effects of immigration, there are two possible 
sets of policy options that could be pursued. The first set would 
involve leaving immigration policy in place and doing more to 
ameliorate the harmful effects of immigration on natives in low-skilled 
occupations Since the research indicates that the negative impact from 
immigration falls on those employed at the bottom of the labor market, 
an increase in the minimum wage may be helpful in offsetting some of 
the wage effects of immigration, though doing so may exacerbate the 
unemployment effect. Most economists think that the minimum wage tends 
to increase unemployment. Increasing the minimum wage and keeping 
unskilled immigration high, may make this problem even worse.
    Another program that might be helpful in assisting those harmed by 
immigrant competition is the Earned Income Tax Credit (EITC). There is 
little doubt that the Credit increases the income of low-wage workers. 
However, in addition to the high cost to taxpayers, the Credit may also 
hold down wages because it acts as a subsidy to low-wage employers. 
That is, employers have less incentive to increase wages because 
workers are now being paid in part by the federal government. Cutting 
low- and unskilled immigration, on the other hand, has no such down 
side for less-skilled workers nor is it costly to taxpayers. Moreover, 
the Credit only increases earnings for those with jobs, it does not 
address increased unemployment among the less-skilled that comes with 
immigration. Finally, it is not clear how much increasing the minimum 
wage or the EITC would be helpful in dealing with the decline in labor 
force participation among less educated natives discussed above.
    Reducing Unskilled Legal Immigration. The second set of policy 
options that might be enacted to deal with this problem would involve 
changing immigration policy with the intent of reducing job competition 
for natives and immigrants already here. If we were to reduce unskilled 
legal immigration we might want to change the selection criteria to 
ensure that immigrants entering the country will not compete directly 
with the poorest and most vulnerable workers. At present, only about 12 
percent of legal immigrants are admitted based on their skills or 
education. Since two-third of permanent residency visas are issued 
based on family relationships, reducing the flow of low-skilled legal 
immigrants would involve reducing the number of visas based on family 
relationships. This might include eliminating the preferences now in 
the law for the siblings and adult children (over 21) of U.S. citizens 
and the adult children of legal permanent residents. These changes 
would not only reduce low-skilled legal immigration immediately, they 
would also limit the chain migration of low-skilled immigrants that 
occurs as the spouses of those admitted in the sibling and adult child 
categories petition to bring in their relatives.
    Reducing Unskilled Illegal Immigration. In addition to reducing the 
flow of low-skilled legal immigrants, a greater allocation of resources 
could be devoted to controlling illegal immigration, especially in the 
interior of the country. About one half of the immigrants working in 
such occupations as construction, building cleaning and maintenance, 
and food processing and preparation are estimated to be illegal aliens 
according to my own analysis and research done by the Pew Hispanic 
Center. A strategy of attrition through enforcement offers the best 
hope of reducing illegal immigration. The goal of such a policy would 
be to make illegals go home or self deport. The former INS estimates 
that 165,000 illegals go home each year, 50,000 are deported, and 
25,000 die. But some 800,000 to 900,000 new illegals enter each year so 
there is a net growth of 400,000 to 500,000 a year.\13\ If America 
becomes less hospitable to illegals, many more will simply decide to go 
home.
---------------------------------------------------------------------------
    \13\ See Footnote 1.
---------------------------------------------------------------------------
    The centerpiece to interior enforcement would be to enforce the law 
barring illegals from holding jobs by using national databases that 
already exist to ensure that each new hire is legally entitled to work 
here. In 2004, only four employers were fined for hiring illegals. The 
IRS must also stop accepting Social Security numbers that it knows are 
bogus. We also need to make a much greater effort to deny illegal 
aliens things like divers licenses, bank accounts, loans, in-state 
college tuition, etc. Local law enforcement can play an additional 
role. When an illegal is encountered in the normal course of police 
work, the immigration service should pick that person up and deport 
him. More agents and fencing are clearly needed at the border as well.
    Conclusion
    As discussed above, the impact of immigration on the overall 
economy is almost certainly very small. Its short- and long-term impact 
demographically on the share of the population that is of working age 
is also very small. It probably makes more sense for policymakers to 
focus on the winners and losers from immigration. The big losers are 
natives working in low-skilled low-wage jobs. Of course, technological 
change and increased trade also have reduced the labor market 
opportunities for low-wage workers in the Untied States. But 
immigration is different because it is a discretionary policy that can 
be altered. On the other hand, immigrants are the big winners, as are 
owners of capital and skilled workers, but their gains are tiny 
relative to their income.
    In the end, arguments for or against immigration are as much 
political and moral as they are economic. The latest research indicates 
that we can reduce immigration secure in the knowledge that it will not 
harm the economy. Doing so makes sense if we are very concerned about 
low-wage and less-skilled workers in the United States. On the other 
hand, if one places a high priority on helping unskilled workers in 
other countries, then allowing in a large number of such workers should 
continue. Of course, only an infinitesimal proportion of the world's 
poor could ever come to this country even under the most open 
immigration policy one might imagine. Those who support the current 
high level of unskilled legal and illegal immigration should at least 
do so with an understanding that those American workers harmed by the 
policies they favor are already the poorest and most vulnerable.

                  TESTIMONY OF RICARDO PARRA, 
                   MIDWEST COUNCIL OF LA RAZA

    Mr. Parra. Members of the Judiciary Committee, thank you 
for allowing me to speak and inviting me, and also thanking the 
public to be present to witness the hearing here. My name is 
Ricardo Parra.
    I would like to get directly into the subject about the 
impact on U.S. workers. I'm sure that in keeping with the theme 
of the field hearing, ``The Reid-Kennedy Bill: The Effect on 
American Workers' Wages and Employment Opportunities,'' some 
will represent studies that undocumented immigrants are 
impacting American workers. At the end of this report, you will 
find recent studies that dispute those claims.
    For example, the study ``Growth in the Foreign-Born 
Workforce and Employment of Native-Born,'' Pew Hispanic Center, 
August 10, 2006. This report shows that rapid increases in 
foreign-born populations at the State level are not associated 
with negative effects on employment of native-born workers.
    Also, new data released by the Census Bureau August 15 
accent the magnitude to which immigration continues to fuel the 
expansion of the U.S. labor force. The study ``Growth and Reach 
of Immigration,'' Rob Paral, Immigration Policy Center, August 
16, 2006.
    Earlier in June, 500-plus economists, including five Nobel 
Laureates--Thomas C. Schelling, University of Maryland; Robert 
Lucas, University of Chicago; Daniel McFadden, University of 
California, Berkeley; Vernon Smith, George Mason University; 
and James Heckman, University of Chicago indicated immigration 
was an economic plus, saying ``the gains from immigration 
outweigh the losses.''
    Fact: Immigrant labor is needed to fill jobs in the U.S. 
that older, more educated American workforce is not willing to 
fill, especially at the low wage and poor working conditions 
many unscrupulous employers offer. Currently, there are 
approximately nine million undocumented workers in the U.S. 
filling important gaps in the labor market. There is 
substantial evidence that their presence in the labor force 
creates jobs and strengthens local economies. Fact is 
undocumented immigrants contribute to the process of wealth 
creation.
    So here we have the hearings, the field hearings. Many 
people say it's a lot of spin and I think we have to stop the 
spin. We can do better. The American people want Congress to 
stop the spin and work on real issues to real problems, like 
the broken immigration system. But instead of sitting down to 
negotiate with the Senate over workable immigration reform, 
House leaders are stalling and conducting an anti-immigrant 
road show. They want to portray all immigrants as criminals and 
terrorists, to manufacture support for their ``get-tough'' and 
``get-tough only'' approach to immigration reform. But the 
American people won't buy it. They want Congress to get back to 
work and to come up with real solutions that is fair and 
practical: a comprehensive immigration reform bill that 
recognizes reality, rewards work, and restores the rule of law 
to immigration.
    To enforce our immigration laws, we need to make them 
enforceable. Our broken immigration system is a complex problem 
that needs a comprehensive overhaul. We've been implementing 
piecemeal measures for 20 years, which have made the system 
more complex, but not more controlled. ``Seal the border'' is a 
sound bite. ``Enforce our laws'' is a sound bite. Comprehensive 
reform is a solution, and only by changing our laws to meet 
economic need and family ties will we be able to restore 
control and order to our system.
    ``Enforcement-only'' or ``enforcement-first'' is the status 
quo, more of the same, and a prescription for failure. For the 
past 20 years, we have tried enforcement-first and enforcement-
only. The result has been a spectacular failure. People 
smuggling has become big business. Fake document merchants have 
plenty of customers. Unscrupulous employers have a large pool 
of exploitable workers. Families stay separated for years. 
Hundreds die in the desert each year. There are 12 million 
undocumented immigrants and counting and Americans all across 
the U.S. are angry at the Government's failure. In light of all 
this, calls for more of the same do not make sense. Illegal 
immigration happens because we have jobs or loved ones on this 
side of the border and an insufficient number of legal visas 
for these workers and family members. We must deal with 
reality.
    Proposals that ignore the 12 million undocumented 
immigrants in our midst are not serious proposals No reform 
proposal can be taken seriously if it assumes that undocumented 
immigrants will simply go away if we get tough enough. It also 
does not make sense to treat those workers as hardened 
criminals. They're already part of our workforce and have U.S. 
citizen and legal resident family members. Making them into 
criminals would only drive them further underground and we 
would know even less about who they are. A much better solution 
would be to bring them out of the shadows so that we can find 
out who they are, put them through background checks and 
security screening, make sure they are all on the tax rolls and 
make them earn their citizenship over time by learning English, 
keeping a clean record and continuing to contribute to our 
country.
    Proposals that pretend we don't need immigrant workers are 
also not serious proposals. Let's get real. We have jobs on 
this side of the borders and workers clamoring to fill them on 
the other side.
    Time to wrap it up? Okay, thank you very much.
    Mr. Sensenbrenner. Thank you, Mr. Parra.
    Dr. Briggs.
    [The prepared statement of Mr. Parra follows:]
                  Prepared Statement of Ricardo Parra

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 TESTIMONY OF VERNON BRIGGS, PROFESSOR OF INDUSTRIAL AND LABOR 
                 RELATIONS, CORNELL UNIVERSITY

    Mr. Briggs. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. Press the red button so the mic works.
    Mr. Briggs. Oh, yes.
    Thank you, Mr. Chairman and Members of the Committee. My 
comments may seem glib but the support is in the lengthy 
testimony, so I hope people have a chance to read it carefully. 
Also, when I use the term ``American worker'' that means not 
only native-born Americans, but it also means those people who 
are naturalized citizens, people who are permanent resident 
aliens and those who are legally allowed to be here. So when I 
use ``American workers,'' it is not something that I am simply 
trying to distinguish between foreign-born and native-born, it 
includes them.
    Immigration reform is the domestic imperative of our time, 
but only in the past 41 years in which this issue exploded. It 
was totally unexpected, there was nothing--no anticipation was 
ever given to what happened, the explosion of mass immigration. 
It wasn't supposed to happen; it did happen. And that should be 
a warning when we take action in terms of legislation, it has 
had enormous unexpected consequences. We ought to be very 
careful on what we enact, that ought to be an overriding 
lesson.
    With respect to impact of immigration, the one place where 
immigration is most significant is on the labor force. As 
Samuel Gompers, the former President of the American Federation 
of Labor, many years ago wrote, ``Immigration is, in its most 
fundamental aspect, a labor issue.'' Immigrants, regardless of 
how they come into the country or how they're admitted, usually 
go directly into the labor force, as do their spouses and their 
children, no matter what criteria we admit them in. So that the 
labor market is the ultimate test of what the impact of 
immigration is all about.
    Today, we have 12 million illegal immigrants in the 
country, about 500,000 a year adding to that number. This is in 
addition to the six million illegal immigrants who have been 
given amnesty by seven different amnesties since 1986. It is 
incredible when you think of this. In addition to the illegal 
immigration we have today, you've given seven amnesties to six 
million others.
    The Immigration Reform and Control Act of 1986 started the 
process of granting amnesties. It enacted a system of employer 
sanctions that were supposed to largely stop the future flow. 
But it was quickly realized that employer sanctions had severe 
problems. Without a reliable and verifiable identification 
system in place, fraudulent documents were easily obtained. 
Likewise, there was no internal enforcement--none, and very 
little inside the country at the work sites. And at the 
borders, vastly inadequate resources in manpower was provided 
to manage border entry.
    Consequently, for many employers, they came to view 
violations of IRCA as simply risk-free, who cares. And as far 
as illegal immigrants, why not come, no one is going to stop 
you if you do try. So them came.
    The main reasons--this is what I want to emphasize--that 
employer sanctions were enacted--and I have testified before 
Congress for 25 years on this issue strongly--was to protect 
the American worker from competition for jobs from people that 
are not even supposed to be in the country, much less in the 
labor force, period.
    The point is often overlooked that when we do an 
immigration reform, the existing shortcomings must make getting 
those who have violated the law out of the labor force as well 
as including those who might come in the future. That's 
critical to it.
    Presently, there are over seven million illegal immigrants 
in the labor force. But it's not just the high number that, as 
I've said, has importance. Overwhelmingly these illegal 
immigrants are poorly skilled and poorly educated. Estimated 
about 83, 84 percent have only a high school diploma or less, 
of the illegal immigration population. This means it's only a 
small portion of this labor force.
    Comparisons with State levels or national levels are 
totally irrelevant. Illegal immigrants compete with the poor 
and the low wage sector of the labor market. That's the people 
who carry the burden and that's the ones that public policy 
should be concerned about.
    Tragically, the most economic disadvantaged in the economy 
and the ones who needed the protection the most are the ones 
who bear the direct competition by illegal immigrants. Worse 
yet, in this bitter competition at the bottom of which there 
are 34 million low wage workers in the United States--34 
million of them--it's these persons who are bearing the 
competition of the illegal immigrants. And in this competition, 
the game is rigged. The illegal immigrants will always win in 
the competition for jobs--always. No matter how hard the 
American workers, as defined, citizens and native-born, try, 
they're going to lose in that competition. Illegal immigrants 
will accept low wages, long hours, work and not complain under 
deplorable conditions and violation of labor laws. They will do 
this consistently because their orbit of comparison is the 
wages and working conditions in the country which they come 
from, which are always worse than they are here in the United 
States no matter how bad they are in this country.
    So many American workers come to prefer illegal immigrants, 
they want illegal immigrants if they can get them. And it's 
simply wrong to say that illegal immigrants take jobs that 
American workers will not do. The reason American workers will 
not do these jobs for the same low wages, long hours, bad 
working conditions that illegals will and they would not have 
to if the illegal immigrants weren't there. These jobs would be 
performed but they'd be performed by people with better 
standards of living. That's the whole purpose of it.
    In the low skilled labor market, American workers know that 
employers typically consider workers as being dispensable. The 
work may be actually essential that these people do, but in the 
low skilled labor market, it doesn't matter who does it. As 
long as someone can be found to do the work, there's no reason 
for an employer to improve the terms of employment. The tragedy 
for low skilled American workers is that the permissive 
immigration policy has enabled a growing pool of illegal 
immigrants who are not only willing to work under deplorable 
working conditions, but are actually grateful for the 
opportunity to work under these awful conditions. There are now 
tens of thousands of jobs, as documented in studies cited in 
the paper, for which no American worker needs to apply, they 
will not be hired. The employers prefer the illegal immigrants 
and if they're there, that's what they want.
    So American workers are being harmed and it's the low wage, 
low skill, the lowest production of our Government who have the 
greatest impact. Getting illegal immigrants out of the labor 
force is as important as keeping the future illegals out.
    In addition to the adverse impact on American workers, the 
presence of illegal immigrants on these terms has led to 
exploitation, massive exploitation. The literature is rampant 
with examples of extortion, physical abuse, human slavery, wage 
kickbacks, child labor, sexual harassment, job accidents, sweat 
shop working conditions. All of this because we have allowed 
and tried to make excuses for illegal immigration. We need to 
get illegal immigrants out of the labor force.
    I see my time has expired. I haven't got to the Senate Bill 
2611, but I will if you'll give me a question later.
    Mr. Sensenbrenner. Thank you very much, Dr. Briggs.
    Dr. Harrington.
    [The prepared statement of Dr. Briggs follows:]
              Prepared Statement of Vernon M. Briggs, Jr.
        ``We should be careful to get out of an experience only the 
        wisdom that is in it--and stop there, less we be like the cat 
        that sits on a hot stove-lid. She will never sit down on a hot 
        lid again--and that is well; but also she will never sit down 
        on a cold one anymore.''--Mark Twain

    Immigration reform is the domestic policy imperative of our time. 
The revival of the phenomenon of mass immigration from out of the 
nation's distant past was the accidental by-product of the passage of 
the Immigration Act of 1965.\1\ Immigration had been declining as a 
percentage of the population since 1914 and in absolute numbers since 
1930. In 1965, only 4.4 percent of the population was foreign born--the 
lowest percentage in all of U.S. history and totaled 8.5 million people 
(the lowest absolute number since 1880). There was absolutely no 
intention in 1965 to increase the level of immigration. The post-World 
War ``baby boom'' was on the verge of pouring a tidal wave of new labor 
force entrants into the labor market in 1965 and would continue to do 
so for the next 16 years. Instead, the stated goal of the 1965 
legislation was to rid the immigration system of the overtly 
discriminatory admission system that had been in effect since 1924. But 
as subsequent events were to reveal, this legislation let the ``Genie 
out of the jug.'' Without any warning to the people of the nation, the 
societal changing force of mass immigration was released on an 
unsuspecting American economy and its labor force. By 2005, the 
foreign-born population had soared to 35.5 million persons (or 12.1 
percent of the population) and there were over 22 million workers in 
the labor force (or 14.7 percent of the labor force).
---------------------------------------------------------------------------
    \1\ For a discussion of how the ``unexpected'' came to be, see 
Vernon M. Briggs Jr., Mass Immigration and the National Interest, 
(Armonk, N.Y.: M.E. Sharpe, Inc. 2003), Chapter 10.
---------------------------------------------------------------------------
    Clearly, the overarching conclusion from the experiences of the 
past 41 years is that, when it comes to immigration reform, legislative 
changes should only be taken with great caution. While there is common 
agreement that the existing system requires major changes, the need for 
reforms should not be seen as an opportunity to introduce a myriad of 
dubious provisions--each of which has significant labor market 
implications--simply to placate the opportunistic pleadings of special 
interest groups.
    Immigration is a policy-driven issue. Policy changes make a 
difference. Any changes should be to the benefit of the nation--
especially the welfare of its existing labor force. For as America's 
most influential labor leader, Samuel Gompers, observed in his 
autobiography: ``Immigration is, in all of its fundamental aspects is a 
labor problem.'' \2\ For no matter how immigrants are admitted or by 
what means they enter the United States, most adult immigrants 
immediately join the labor force following their entry as do today many 
of their spouses and, eventually, most of their children. Immigration 
has economic consequences, which political leaders need to take into 
account when making any policy decisions.
---------------------------------------------------------------------------
    \2\ Samuel Gompers, Seventy Years of Life and Labor, (New York: 
Dutton, 1925), Volume 2, p. 154.
---------------------------------------------------------------------------
            ``the hot stove-lid'' issue: illegal immigration
    The underlying reform issue that must be addressed before any 
others is illegal immigration. It makes no sense to debate remedies for 
deficiencies and/or additions to the extant immigration system when 
mass violations of whatever is enacted are tolerated year after year 
after year. The accumulated stock of illegal immigrants is believed to 
number between 11.5 to 12 million persons.\3\ The annual additional 
flow is estimated to be between 300,000 to 500,000 persons. Many 
believe these estimates are too low. Worse yet, these numbers exist 
despite the fact that over 6 million illegal immigrants have been 
allowed to legalize their status as the result of seven amnesties 
granted by the federal government since 1986.\4\ No other element of 
immigration reform has any claim of priority over the enactment of 
measures to end this scourge to effective policy implementation. The 
hemorrhage of illegal immigrants has not only made a mockery of the 
nation's immigration laws, it has seriously undermined the public's 
confidence in their own government's ability to secure its borders and 
control the nation's destiny.
---------------------------------------------------------------------------
    \3\ Jeffrey Passel, ``The Size and Characteristics of the 
Unauthorized Migrant Population in the U.S.'' Research Report, 
(Washington, D.C.: The Pew Hispanic Center, 2006), p.1.
    \4\ The legalization programs have been: The Immigration Reform and 
Control Act (2.7 million adjustments in two separate amnesties); 
Section 245i rolling amnesties in 1994 and its legislative extension in 
1997 (578.000 adjustments); the Nicaraguan Adjustment and Central 
American Relief Act of 1997 (1 million adjustments); the Haitian 
Refugee Immigration Fairness Act of 1998 (125,000 adjustments); the 
Late Amnesty Agreement of 2000 between President William Clinton and 
Congressional leaders to allow 400,000 illegal immigrants adjustments 
because, it was alleged, they should have qualified for one of the IRCA 
amnesties of 1986; and the Legal Immigration and Family Equity Act of 
2000 (900,000 adjustments).
---------------------------------------------------------------------------
    Despite the fact that the issue of illegal immigration had been 
identified soon after the Immigration Act of 1965 was passed, it took 
Congress another 21 years to finally confront the issue. It did so with 
the passage of the Immigration Reform and Control Act of 1986 (IRCA). 
This legislation made it illegal for an employer to hire a non-citizen 
unless that person had specific authorization to work (i.e., they were 
a permanent resident alien of the United States or they held a specific 
non-immigrant visa that permitted them to work under specific terms for 
a temporary time period). A scale of escalating civil penalties coupled 
with the potential of criminal penalties for serious repeat offenders 
was established.
    IRCA also granted a general amnesty to most illegal immigrants 
living in the country since January 1, 1982 and an industry-specific 
amnesty to most illegal immigrants who had worked in the perishable-
crop sector of the agricultural industry for at least 90 days between 
May 1, 1985 and May 1, 1986. These amnesties were deemed necessary 
because, prior to the passage of IRCA, our immigration policies were 
seen as being ambiguous as to their intentions relative to the working 
rights of illegal immigrants. While it was illegal for illegal 
immigrants to enter the country without inspection or to work in 
violation of the terms of an otherwise legal non-immigrant visa, it was 
not illegal for a U.S. employer to hire them. IRCA ended this legal 
hypocrisy with its new provisions regarding employer sanctions. They 
became effective the instant that President Ronald Reagan signed the 
legislation on November 6, 1986.
    Previously, legislation to enact employer sanctions had been 
introduced by the Judiciary Committee of the U.S. House of 
Representatives and was passed in 1971 and 1972 only to die both times 
in the U.S. Senate. The proposal was resurrected and included as part 
of a legislative package proposed by President Jimmy Carter in 1977. He 
had correctly identified illegal immigration as being a critical labor 
market problem and included employer sanctions as part of his 
legislative remedies to correct this mounting malady. Congress, 
however, was hesitant to accept such a bold change in the status quo 
and believed that it would be better to address the problem of illegal 
immigration in the context of a comprehensive effort to reform of all 
aspects of the nation's embattled immigration system. To aid them in 
this task, Congress created the Select Commission on Immigration and 
Refugee Policy, chaired by the Rev. Theodore Hesburgh who was President 
of Notre Dame University at the time. It was requested to study all 
aspects of the nation's immigration system and to make any 
recommendations for changes it deemed necessary. When the Select 
Commission made it final report in early 1981, it identified illegal 
immigration as the primary cause for the immigration system to be ``out 
of control.'' The Select Commission concluded that the ``centerpiece'' 
of the nation's efforts to enforce its immigration laws should be 
employer sanctions. Ultimately in 1986, Congress and the President 
agreed and they were enacted as part of IRCA. By this time, efforts to 
pass ``comprehensive'' immigration reform had been abandoned when those 
efforts failed in both 1982 and 1984 (likewise, refugee reforms had 
already been pealed-off for separate legislative action in 1980). But 
amidst a continuing public outcry demanding action on illegal 
immigration, a strategy of ``piecemeal'' reform was adopted in 1986 by 
congressional leaders--with illegal immigration identified as being the 
most egregious problem that needed to be addressed first--and it proved 
to be successful.
    Experience quickly revealed, however, that IRCA had serious 
weaknesses. Without a reliable and verifiable worker identification 
system in place, fraudulent documents are easily obtained which meant 
that enforcement efforts can be--and are--widely circumvented. Vastly 
inadequate resources were provided to manage border entries and to 
patrol the vast border space between entry points. Internal enforcement 
away from the border and at worksites was and still is virtually non-
existent. As a consequence, illegal immigrants continue both to enter 
surreptitiously or to overstay and violate the terms of legal visas. As 
a result, violations of the employer sanctions provisions of IRCA 
were--and still are--viewed as being ``risk-free'' actions by many 
employers. In 2004, only three employers nationwide paid criminal fines 
for violating the law. Perversely, those employers who seek to follow 
the law are often placed at a distinct competitive disadvantage in 
their hiring decisions with those employers who flaunt the law.
    As for the illegal immigrants themselves, those apprehended at or 
near the border are typically simply returned to Mexico, if that is 
their nationality. They then repeat their efforts to enter illegally 
and continue to do so until eventually they succeed in avoiding 
capture. Those who are apprehended and are not of Mexican origin are 
usually released and told to report to a hearing at some distant date 
(which few ever do). The same has been often the case away from the 
border. Because there is a chronic shortage of detention facilities 
nationwide and as detention is costly, those apprehended away from the 
border are likewise usually released and either told to report to a 
future hearing or to agree voluntarily to leave the country on their 
own (few do either). If it were not for the human tragedies involved, 
the entire federal enforcement process to date would be script for 
comedy.
    But the fundamental reason to rectify the shortcomings of IRCA are 
associated with the reasons why employer sanctions were deemed 
necessary in the first place: to protect the American worker (defined 
here and hereafter as being the native born workers; all foreign born 
persons who have become naturalized citizens; those non-citizen workers 
who are permanent resident aliens; and those foreign nationals who have 
been granted specific non-immigrant visas that permit them to work for 
limited time periods in the country) from having to compete for jobs 
with persons who are legally not supposed even to be in the country and 
absolutely not supposed to be in the labor force.
    It is estimated that there are 7.2 million illegal immigrants in 
the labor force in 2005 (or about 4.9 percent of the nation's labor 
force).\5\ But it is not the total number--even though it is very large 
and no doubt undercounted due to the great difficulty obtaining 
reliable data on any illegal activity--that is the crucial concern. 
Because illegal immigrants tend to be disproportionately concentrated 
in certain segments of the nation's labor market, their direct impact 
is quite specific. The 2000 Census reported that 58 percent of the 
adult foreign-born population had only a high school diploma or less. 
Undoubtedly the educational attainment level of illegal immigrants is 
even worse than this bleak Census finding that is the product of our 
entire immigration system. Consequently, there is no doubt that most 
illegal immigrants are poorly educated, unskilled and often do not 
speak English. Of necessity, therefore, they seek employment in the low 
skilled occupations in a variety of industries. In the process, they 
artificially swell the labor supply in those occupations and industries 
and depress the wages of the low skilled American workers who also work 
in these sectors.\6\
---------------------------------------------------------------------------
    \5\ Passel, p.2.
    \6\ George J. Borjas, ``Increasing the Supply of Labor Through 
Immigration: Measuring the Impact on Native-Born Workers,'' 
Backgrounder, (Washington, D.C., May, 2004).
---------------------------------------------------------------------------
    If permitted to compete for these jobs with American workers, the 
illegal immigrants will always win. This is because they will do 
anything to get the jobs--accept lower than prevailing wages; work 
longer hours; work under dangerous and hazardous working conditions; 
and live in crowded and sub-standard housing. They will accept 
conditions as they are and are less likely to report violations of 
prevailing laws pertaining to work standards, anti-discrimination and 
sexual harassment--even if they know these laws exist (which many do 
not). No American worker can successfully compete against them--nor 
should they--when the rules of the game are who will work the hardest, 
for the longest, and under the worst conditions.
    As a consequence, the illegal immigrant worker becomes the 
``preferred worker'' for employers. It is not that ``American workers 
will not do certain jobs;'' it is that they will not do the jobs under 
the same terms that illegal immigrants often will--nor should they. As 
for the illegal immigrants, they willingly work under these adverse 
conditions, because their orbit of comparison is with the conditions of 
work in their homelands. Literally, it does not matter how bad the 
working conditions are in the United States as they are invariably far 
better than they were where they come from. Sometimes it is simply the 
fact that it is possible to get a job at all that distinguishes the 
state of economic opportunity in the United States from their previous 
experiences in their countries of origin.
    Thus, illegal immigrants will always be willing to work in any job 
they can find. Low skilled American workers (as defined above), on the 
other hand, know that low wages and bad working conditions are 
associated with jobs where employers typically consider individual 
workers as being dispensable. The work may be essential, but who does 
it is not important. As long as someone can be found to do it, there is 
no need to make the job attractive or to compete actively to get some 
one to do it. The availability of a pool of illegal immigrants who are 
more than willing to do fill these jobs means that wages do not have to 
be increased or do working conditions need to be improved. Moreover, 
employers have found illegal immigrants so attractive that they often 
use those who they do hire as a network to hire their relatives and 
friends when they need replacements or additional employees. As a 
consequence, there are thousands--probably tens of thousands--of jobs 
in which employers will not hire American workers.\7\ They do not want 
them and, given the alternative of illegal immigrants, they do not 
recruit or hire American workers. All of this is illegal, of course, 
but who is keeping the illegal immigrants out?
---------------------------------------------------------------------------
    \7\ E.g., see Elizabeth Bogen, Immigration in New York, (New York: 
Praeger, 1987), p. 91.
---------------------------------------------------------------------------
    In this context, it is important to know that there are more than 
34 million low wage workers in the U.S. labor force (those earning less 
than $8.70 an hour--a wage that will about meet the minimum poverty 
threshold for a family of four) who are in the low skilled sector of 
the labor market.\8\ Overwhelmingly, most of these workers are American 
workers (as defined above). Also, as the number of illegal immigrant 
workers has soared since the year 2000, 3.2 million native born persons 
of working age who had only a high school diploma or less have dropped-
out of the labor force.\9\ Presumably, they have found it more 
rewarding to seek public benefits to support themselves or chosen to 
pursue illegal activities to support themselves. Unfortunately, it is 
these low skilled American workers who bear most of the burden of 
competing for the jobs on the lower skill rungs of the nation's 
economic job ladder with illegal immigrants.
---------------------------------------------------------------------------
    \8\ Eileen Appelbaum, Annette Bernhardt and Richard Murnane, Low 
Wage America, (New York: Russell Sage Foundation, 2003).
    \9\ Steven A. Camarota, ``Dropping Out: Immigrant Entry and Native 
Exit from the Labor Market, 2000-2005,'' Backgrounder, (Washington, 
D.C.: Center for Immigration Studies, March 2006).
---------------------------------------------------------------------------
    It comes as no surprise, therefore, that the Council of Economic 
Advisers to the President during the Clinton Administration found that 
``immigration has increased the relative supply of less educated labor 
and appears to have contributed to the increasing inequality of income 
within the nation.'' \10\ Subsequent research has documented the 
obvious. In a study released in late 2005 by the National Bureau of 
Economic Research that analyzed the explanations for the dramatic rise 
of family income inequality in the United States that has occurred 
since 1968 (i.e., roughly the same period that spans the revival of the 
current wave of mass immigration), it found that ``for the lower half 
of the income distribution, . . . changes in labor supply'' was one of 
the ``principal causes of the growing distance between the poor and the 
middle-income families.'' \11\ Thus, immigration in general but illegal 
immigration in particular is unquestionably a major explanation for 
this worrisome and dangerous societal trend.
---------------------------------------------------------------------------
    \10\ Council of Economic Advisers, Economic Report of the 
President: 1994, (Washington, D.C. Government Printing Office, 1994), 
p. 120.
    \11\ Chulhee Lee, ``Rising Family Income Inequality in the United 
States, 1968-2000: Impacts of Changing Labor Supply, Wages and Family 
Structure,'' NBER working Paper No. 11836, Abstract.
---------------------------------------------------------------------------
    Massive numbers of illegal immigrants such as those now in the U.S. 
labor force--and the prospect that many more will continue to come 
until the magnet of finding jobs is turned-off--has opened wide the 
door for human exploitation. The literature is rampant with case 
studies and reports that document that the portion of the labor market 
where illegal immigrants work is infested with of the use of extortion 
and brute force (by human smugglers which is a thriving criminal 
enterprise), human slavery (workers bound to human smugglers until 
their fees are paid off), wage kickbacks (to employers of illegal 
immigrants as well as to labor contractors), child labor, sexual 
harassment, job accidents (especially by illegal immigrants who cannot 
read safety warnings or who lie about their past work experiences and 
are injured or killed in jobs that they really do not know how to do), 
and the growth of ``sweat shop'' manufacturing.\12\
---------------------------------------------------------------------------
    \12\ E.g., see Peter Kwong, Forbidden Workers: Illegal Immigrants 
and American Labor, (New York: The New Press, 1997); Luis Urrea, The 
Devil's Highway, (New York: Little, Brown and Company, 2004); and Ted 
Conover, Coyotes: A Journey Through the Secret World of America's 
Illegal Immigrants, (New York: Vintage Books, 1987).
---------------------------------------------------------------------------
    Thus, there is nothing romantic about the nation's failure to 
enforce its immigration laws no matter how often or vocal pro-immigrant 
advocacy groups try to spin and to rationalize the issue. Indeed, the 
indifference paid by many of our national political leaders, the media, 
and many elite leaders of business, labor, religious, civil rights, and 
civil liberties groups to these exploitive conditions represents a 
decidedly seamy side--the dark side, if you will--of our democracy.
    In addition to the adverse workplace impact of illegal immigration, 
there are other corrosive effects on the social fabric that are also 
linked to illegal immigration. Among these are: adult illiteracy, child 
poverty, school dropouts, unvaccinated children, violent street gangs, 
crime, and persons without health insurance to mention only some of the 
concerns that are reasons themselves to act.

                    THE LESSONS FROM ``EXPERIENCE''

    Illegal immigration is the primary issue that immigration reform 
must embrace. Not only is it a cause itself of significant harm to the 
economic well-being of the most needy members of the American populace, 
but it also adversely affects the broader society itself. Hence, there 
is little reason to believe that other policy reforms can be beneficial 
as long as the integrity of the entire system is in question. There are 
three steps that must be taken: 1. The employment sanctions system must 
be made to work (e.g., a program to verify social security numbers must 
be made mandatory immediately and steps taken to establish a national 
counterfeit-proof worker identification card be undertaken and 
implemented as soon as possible; internal enforcement at the worksite 
to validate that employees are in fact eligible to work must become a 
routine matter; fines for violations of the employer sanctions system 
must be increased as must be the criminal penalties for repeat 
offenders). 2. Enforcement must become a reality (by both deed and 
publicity, the message must be made clear: illegal immigrants will not 
work in the United States--those apprehended will be deported and those 
who hire them will prosecuted to the full extent of the law; more 
detention facilities, manpower, and resources must be devoted to 
enforcement). 3. There must be no amnesties--now or in the future--for 
those illegally in the United States (American workers are being harmed 
by the presence of persons in the labor force who are not supposed to 
be there; getting those who are now here out of the labor force is as 
important as keeping future illegal immigrants from entering it; talk 
of amnesties only raises the hopes of those here that they can stay and 
of others outside the country to keep coming because, if an amnesty is 
provided again, it will likely be done again in the future--that is the 
wrong message).\13\
---------------------------------------------------------------------------
    \13\ Olga R. Rodriguez, ``Migrants Rush for Border Anticipating 
Guest Worker Plan,'' Ithaca Journal, (Associated Press story), (April 
13, 2006), p. A-2.
---------------------------------------------------------------------------
    As there is no debate over the fact that the nation's immigration 
laws are not being enforced, ``experience'' indicates that fact alone 
is one of the primary reasons why illegal immigration not only 
continues over the years but gets progressively worse. Until the 
nation's immigration laws are made enforceable and are enforced, 
``wisdom'' dictates that the reform process should ``stop'' here.

                  THE ``COLD'' STOVE-LID ISSUE: S.2611

    With the exception of the provisions pertaining to enforcement 
issues, most of the provisions of the Comprehensive Immigration Reform 
Act of 2006 (S.2611) neglect the earlier experiences that should have 
been learned with the passage of IRCA in 1986. The proposed legislation 
also contains provisions that have staggering implications for the 
future of the size and composition of the nation's labor force and 
population. Given the scale of the numbers involved, the effects of 
such massive changes themselves deserve careful scrutiny independent of 
being linked to the controversial subject of illegal immigration. The 
passage of IRCA, as discussed earlier, was supposed to have brought an 
end to the issue of illegal immigration. Based on the assumption that 
it did, the Immigration Act of 1990 was passed which dealt with the 
next step in ``piecemeal reform:'' legal immigration. Based on the 
premise that the ``backdoor'' to the American labor market was closed 
(i.e., illegal immigration), the Immigration Act of 1990 sought to open 
the ``front door (i.e., legal immigration) by raising the annual level 
of legal immigration to about 675,000 persons a year plus refugees. But 
the premise proved to be false and by the mid-1990s the U.S. Commission 
on Immigration Reform (CIR), Chaired by Barbara Jordan (a former member 
of Congress but by then was a Professor at the University of Texas at 
Austin) was recommending that the level of legal immigration be reduced 
back to about its pre-1990 level of about 550,000 persons a year 
(including refugees).
    As the findings of the Jordan Commission became public through a 
series of interim reports, Congress and the Clinton Administration did 
tinker with the issue of illegal immigration with the passage of the 
Illegal Immigration Reform and Immigrant Responsibility Act of 1996. 
But none of the real needs--such as a requirement for employers to 
verify the authenticity of social security numbers or the need for a 
verifiable worker identification system--were included in the 1996 
legislation. Likewise, all the Commission's recommendations for 
significantly reducing the annual level of legal immigration and making 
major changes in the admission categories were simply ignored This was 
despite promises by both the President and congressional leaders that 
they would come back to these issues after the 1996 election. It never 
happened, of course. Had the major recommendations of the Jordan 
Commission been accepted, the immigration mess that nation has today 
could have been largely avoided.
    Unfortunately, S.2611 shows no awareness of any of the findings, 
insights, and recommendations of CIR. This is despite the fact that its 
reports are the most politically impartial and carefully researched 
study of immigration that the nation has ever had. In sharp contrast, 
S.2611 seems to be the product of the wish list of every pro-
immigration special interest group in Washington. None of its major 
provisions show the slightest awareness of any of the research on what 
is wrong with the existing immigration system and what can be done to 
reform it. Concern for the anticipated impact on the income, wages and 
employment opportunities for American workers of such massive changes 
in prevailing immigration policy is scant.
    Estimates of the overall numbers of immigrants who will be admitted 
under S.2611 over the next 20 years are all over the place. They have 
ranged from 28 million to as high as 61 million and almost everywhere 
in-between.\14\ The variation occurs, understandably, because many of 
the provisions require assumptions that simply cannot be known in 
advance by anyone. Human beings are involved and how they respond 
individually and collectively to legislative prompts, permissions and 
restrictions can never be known in advance for certain. Thus, much of 
what is proposed is a voyage into uncharted waters with respect to what 
may happen. If the scale of persons involved were small, the 
uncertainty would not matter much; but this is not the case. The 
estimated numbers are huge and the accompanying margins of error of 
analysis are large. The human consequences of a mistake that could 
flood the low skilled labor market and swamp the nation's social safety 
systems are enormous and could be disastrous to the nation.
---------------------------------------------------------------------------
    \14\ Robert Rector, ``Up to 61 Million Immigrants Might Flow into 
the U.S. Under Proposed Reform,'' and Stuart Anderson, ``After 
Analyzing Data, Foundation Finds 28 Million a More Likely Figure'' 
Rocky Mountain News, (July 1, 2006), pp.10C-11C.
---------------------------------------------------------------------------
    By any stretch of the imagination, if the entire bill were enacted 
in it present form, the number of immigrants admitted should at least 
triple (to at least 53 million persons) over what would be the case if 
the law was left unchanged (about 18 million) over the next 20 years. 
These figures, however, do not allow for any continuation of illegal 
immigration over these years (which is, of course, unrealistic) and it 
omits some groups who may also benefit but are simply impossible to 
estimate in advance--e.g., parents of those who eventually become 
naturalized citizens and, therefore, have the right to enter in 
unrestricted numbers.
    Most of the ``new'' immigrants would enter as a result of the 
amnesty provisions and what is called ``guest worker'' provisions of 
the legislation. About 10 million of the estimated 12 million illegal 
immigrants in the country would be eligible to benefit. Those who have 
been illegal for 2-5 years (about 1.8 million persons) can apply for a 
newly created H-2C visa entry card for a so-called ``guest worker'' 
program at specific ports of entry. After four years in that status (or 
sooner if their employer applies on their behalf), they can apply for 
permanent resident alien status but all of this time they may work in 
the U.S. labor force. For those illegally in the country more than 5 
years (7.7 million persons), they can apply immediately (i.e., they are 
placed on a ``glide-path'') for a permanent resident card and will 
receive it as soon as the backlog of applicants can be processed. 
Meanwhile, they too have immediate legal access to the U.S. labor 
market. Lastly, there is also a special agricultural workers program, 
or ``blue card'' program, (for 1.1 million illegal immigrants working 
in the agricultural industry, about 830,000 of whom would be eligible 
under the other two amnesties but will probably choose this one because 
it has a much faster and cheaper way to become a permanent resident 
alien). This means that about 2 million illegal immigrants (those here 
less than 2 years) are the only ones who are supposed to leave or be 
deported if apprehended.
    Most of the beneficiaries of these amnesties are already in the 
country and most who of working age are presumably employed or trying 
to be. Most are believed to be employed in the low skilled sector of 
the economy. By allowing them to stay and to legalize their status 
means they will be able to more easily move between jobs and employers 
so that the many American workers who presently compete with illegal 
immigrant workers cannot expect any relief. But to make matters worse, 
as they move around freely and legally, other unskilled workers in 
other geographical areas, occupations and industries may who have not 
competed with them in the past may now be impacted. Over time, these 
newly entitled workers are permitted to legally bring their immediate 
family members with them, it can be expected they too will gradually 
enter the low wage labor market too--some legally but others illegally 
if they come early. Even these estimates of behavior are likely to be 
underestimated since it is likely that there will be extensive fraud 
associated documentation of eligibility for the different categories 
and family relationships plus the certainty that illegal immigration 
will add even more. Moreover, as these persons become eligible to 
become naturalized citizens, their extended family relatives and their 
family members become eligible to immigrate. Over the next two decades, 
the percentage of the population who will be foreign born will soar to 
levels never before experienced in the country (certainly over 20 
percent) as will the percentage of foreign born in the labor force hit 
unprecedented heights (perhaps as high as 24 percent).
    Thus, if S.2611 is enacted, the only thing that can be said for 
sure is that the number of unskilled workers is going to swell 
enormously. This does not portend well for much in the way of upward 
wage pressure for those many American workers on the bottom of the 
economic ladder and it means the competition for low skilled jobs will 
be brutal. Rather than have market forces improve wages for low skilled 
American workers (if the illegal workers were removed from the labor 
market as current law says they should), market forces can be expected 
to keep wages for low skilled workers low (and probably falling in real 
terms). This means that they will have to hope that state and federal 
minimum wages levels are increased to circumvent the market and it is 
increasingly likely that, as their numbers swell, state and local tax 
payers are going to be called-on to subsidize these low wage workers 
who are not going to be able to earn sufficient incomes by working to 
cover housing, health, and living expenses for themselves and their 
family members.
    These amnesty programs, if enacted, will guarantee the there will 
be no shortage of low wage workers for the next 20 years--especially if 
illegal immigration continues to supplement the ranks of the low 
skilled pool. But there can be no parallel guarantee over these years 
that there will be a sufficient increase in demand for low-skilled 
workers whose unemployment rates are already among the highest in the 
nation. There is absolutely no evidence of a generalized labor shortage 
of low skilled workers or any signs of wage-induced inflationary 
pressures associated with shortages for such workers. Indeed, if ever 
there was a prescription for the resurrection of the Marxian notion of 
the existence of ``a reserve army'' of the poor and unemployed to keep 
wages depressed for the vast number of low skilled workers for those 
with jobs over the long run and to make this nightmare a reality, this 
legislation is it.
    Likewise, at the other end of the wage scale, the proposal to 
dramatically expand the H-1B program for workers in specialty 
occupations has nothing to do with illegal immigration. But, it too has 
much to do with special interest lobbying for skilled labor that will 
be cheaper than if these industries have to compete for such workers 
among an exclusively American worker pool. The basic question is: why 
should the government use public policy to keep the wages of American 
workers lower than they would otherwise be or even to provide 
opportunities for employers of such skilled labor to avoid hiring or to 
replace American workers? The existing H-1B program is fraught with 
charges of hiring and layoff abuses. These concerns are associated with 
whether or not the program is designed to keep starting level wages low 
and, also, whether it is also used as a means to discriminate against 
older workers who, if retained, would command higher wages. It also 
conjures up opportunities for abuse associated with the issue of 
``indentured servitude.'' If the visa holder is intending to try to use 
it as a means to ultimately legally immigrate to the United States 
under the employment-based admission category, he often needs his 
employer to certify that he is needed and that qualified American 
workers are not available. There is no indication at the moment of any 
shortage of these skilled workers and it would be highly preferable, if 
there were to be one, that support be given by Congress to invest in 
the American youth and American training institutions to meet such a 
labor demand. There is no reason to expand this controversial program 
at a time when the public's attention is focused on the issue of 
illegal immigration.
    And, of course, all of this assumes that the immigration bureaus in 
the Department of Homeland Security can adequately administer these new 
programs while keeping up with all of their other service and 
enforcement duties. These bureaus are already the most over worked, 
under staffed and, relative to the importance of their duties, the most 
under funded agencies in the entire federal bureaucracy. It is simply 
inconceivable that these bureaus could administer these added duties in 
anything near a competent manner, even if they tried. It would be far 
cheaper and far more effective to simply staff-up and fund-up the 
enforcement divisions and tell them to do what the law currently 
requires. The greatest beneficiaries of this simple mandate would be 
the low-skilled American worker.

                     ``REAL'' COMPREHENSIVE REFORM

    The title of S.2611 is The Comprehensive Immigration Reform Act but 
the legislation itself is not ``comprehensive'' at all. The logical 
starting point of any such effort would be the final report of the U.S. 
Commission on Immigration Reform (CIR) that was issued in 1997. CIR was 
concerned that the existing system pays virtually no attention to the 
labor market in its design. For the vast majority of immigrants, their 
human capital attributes play no role on their eligibility to 
immigrate. Whatever human capital attributes most immigrants bring to 
the United States is purely an accidental benefit to the nation. Far 
too many bring far too little. The ``chain-migration'' where by the 
admission of one person triggers an entitlement to the multiple entries 
of a myriad of family members only compounds the pattern
    Unfortunately, as the data on the foreign-born population shows, 
many have low levels of educational attainment, are poorly skilled, and 
are non-English speaking. To reduce this outcome, CIR proposed that the 
level of legal immigration be reduced--not increased. To accomplish 
this feat, it recommended the deletion of most of the extended family 
admission categories of the current system that provide an eligibility 
claim for entry if one member of the family immigrated to the United 
States and naturalized. Specifically, CIR proposed that the categories 
that admit adult unmarried children of U.S. citizens; adult married 
children of permanent resident aliens; and the adult brothers and 
sisters of U.S. citizens all be eliminated. Doing so would greatly 
reduce the chain-migration features of the present system which is the 
major reason that human resource attributes play such a small role in 
determining the eligibility of most of those who are legally admitted. 
It is also a principle reason why the accumulating family reunification 
effects of S.2166 are so massive and so worrisome. They would entitle 
the potential admission of so many persons with low human capital 
endowments.
    In this same vein, CIR also recommended the termination of the 
diversity admission category. The diversity lottery pays scant 
attention to any of the human capital attributes of who those it 
renders eligible to enter (as long as the ``winners'' have high school 
diplomas). Furthermore, CIR recommended that no unskilled workers be 
admitted under the employment-based admission category. It recognized 
that the nation already has a surplus of unskilled workers and 
certainly did not need to admit any more. CIR was emphatic in 
concluding that there should be no guest worker programs for unskilled 
workers and only such programs for skilled workers under very 
restrictive terms. No where in their findings did they recommend any 
amnesty for illegal immigrants. Instead, they made numerous 
recommendations to rid the labor market of their presence.
    The findings of the Commission on Immigration Reform were the 
product of six years of careful study that was backed up by numerous 
public hearings, consultations with experts and research studies--
including the work done by a panel created by the National Research 
Council. Comprehensive immigration reform should begin with CIR's 
recommendations. There seems to be no awareness in the provisions of 
S.2611 of any of CIR's work which leaves one wondering where did these 
anti-American worker ideas come from?

                           CONCLUDING COMMENT

    Until it can be demonstrated the United States is willing and 
capable of enforcing its immigration laws, illegal immigration will 
continue with all of its negative impacts on American workers and 
corrosive effects on American society. Keeping illegal immigrants from 
entering the country without inspection or violating the terms of a 
legal visa and removing those in the county from the labor force is the 
prerequisite for all serious immigration reform efforts. Accomplishing 
this does not mean that amnesties should be given to those already here 
as a way to make the problem disappear. Such political sophistry--as 
``experience'' has shown--only encourages more to come and, as shown,
    has enormous population and labor force consequences associated 
with family reunification rights of those granted legalization. More 
importantly, however, amnesty will do nothing to help the American 
workers and American taxpayers who are adversely affected by the 
presence the 12 million illegal immigrants currently here.
    With Labor Day 2006 only a few days away and given the location of 
this hearing, a paraphrase of the words of a famous Indianan--Knute 
Rockne--seems most appropriate for a conclusion: ``Let's win one for 
the American Worker.'' Make enforcement of our immigration laws a 
reality. ``And stop there.''

 TESTIMONY OF PAUL HARRINGTON, ASSOCIATE DIRECTOR, CENTER FOR 
         LABOR MARKET STUDIES, NORTHEASTERN UNIVERSITY

    Mr. Harrington. Thank you, Chairman Sensenbrenner, it's a 
privilege to come before the Committee today.
    During the last 5 years, new immigrants have accounted for 
an overwhelming share of all the employment growth in the 
Nation--that has occurred in the Nation. Native-born adults and 
established immigrants have been unable to capture much of the 
new employment opportunities that have been created in the U.S. 
since 2000. Total number of employed persons, age 16 and over, 
in the United States between 2000 and 2005 rose by 4.835 
million. A total of 4.134 million new immigrants were employed 
by 2005. That means that 86 percent of the entire rise of 
employment that occurred over the last 5 years in the United 
States has been concentrated among people that came into the 
United States from overseas between 2000 and 2005. So new 
immigrants have accounted for all that employment growth.
    Among men, new immigrants accounted for the entire rise in 
employment, as the total number of employed men in the Nation 
increased by 2.665 million, while number of employed new 
immigrant males, immigrant males that came into the country 
after 2000, rose by 2.76 million. For the first time since 
World War II, there has been no gain in employment among 
native-born men over a 5-year period.
    Employment growth among new immigrants was heavily 
concentrated among those under the age of 35. Approximately 
two-thirds of the increase in the new immigrant employed 
workforce, or about 2.7 million workers, took place among those 
16 to 34.
    Many of the young immigrants were very close substitutes to 
native-born young workers--tend to be male, tend to have low 
levels of educational attainment. By subtracting the number of 
new immigrant workers in each group from the change in total 
employment by age, we can estimate the change in the number of 
employed native-born workers and established immigrants in each 
group in the United States. Over the last 5 years, the total 
number of young people employed in the country under the age of 
35, who are native-born, fell by 4.2 million. There were 4.2 
million fewer 16 to 34 year old native-born teens and young 
adults employed in the United States in 2005 than there were in 
2000. However, there are 2.7 million more 16 to 34 year old 
foreign-born workers who came into the United States over the 
last 5 years, who have been employed. Very powerful evidence, 
in my mind, of substitution occurring in the job market.
    When you ask yourself, well, is this a demographic factor, 
have we simply got fewer young people, native-born young 
people, residing in the United States. The answer is no. The 
size of the teen and young adult population has expanded by 
about 1.8 million over the last 5 years. There reason why 
employment among young teens and young adults in the United 
States has declined is because their employment rate has 
fallen. Employment referring to the sheer people in the working 
age population that have a job.
    So back in 2000, the number of 16 to 19 year old males that 
worked in the United States was about 45 percent, about 45 
percent of all males 16 to 19 had a job. By 2005, that share 
had fallen to 36 percent, a relative decline of one-fifth in 5 
years, a historically low rate of teen employment in the United 
States. For females, the rate feel, for 16 to 19 year olds, the 
rate fell from 46.8 percent down to 39.5 percent, a 16 percent 
relative decline in employment rates. Across the board, for 16 
to 19, 20 to 24, 25 to 30--29 year olds--we see extraordinary 
losses in employment rates.
    So what we see happening here is the substitution of 
foreign-born for native-born workers is very heavily 
concentrated among the youngest people in the United States and 
people with lower levels of educational attainment.
    Diminished access to employment for teens and young adults 
has important economic and social consequences. Working at an 
early age is a developmental activity akin to developing basic 
skills or occupational proficiencies in a school setting. 
Building work experience helps enhance the productive abilities 
of young adults along dimensions that are not typically 
addressed in classrooms. Students who work more at younger ages 
participate in the labor force at higher rates as adults, are 
less likely to experience a bout of unemployment as adults and 
if they do become unemployed, find work more quickly than those 
with little or no work experience. Early work experience can 
increase the earnings of individuals over their lifetime 
between 25 and 30 percent when they become young adults. So the 
power of early work experience is extraordinarily important.
    Multi-varied analysis of employment status of teens and 
young adults, we conducted using America's community surveys, 
found that the employment probabilities of young workers were 
substantially negatively affected by the level of new immigrant 
worker inflows into a State, contrary to the findings of the 
Pew study. These negative impacts tended to be larger for young 
subgroups, for men than for women, for in-school youth than for 
out-of-school youth and particularly for Black and Hispanic 
males relative to their White counterparts. Employers were 
substituting new immigrant workers for young native-born 
workers. And the estimated size of these displacement effects 
we found to be quite large.
    Last topic I want to talk about has really got to do with 
the hiring of new immigrants and how I believe that this has 
really had some important long-term impacts on the structure of 
labor markets and industrial relations, employer-employee 
relations in the United States. Fewer new workers, especially 
private sector wage and salary jobs are ending up on formal 
payrolls of employers.
    This particular economic recovery has been very weak. We 
have not generated plenty of jobs in the United States over the 
last 5 years. In fact, if you go back and look by historical 
standards, in the first 4 years of recovery, the average rate 
of new job creation is about 11.5 percent relative to previous 
periods. During this recovery, the rate is only 2.5 percent. So 
it has been a very sluggish employment growth. What's happened 
is that over time, rather than creating regular wage and salary 
jobs where we have Social Security, unemployment insurance and 
other kinds of tax reporting occur, we're generating large 
numbers of jobs off the books. And you see these in places like 
Lowe's and Home Depot, in parks, in shopping lots, and they're 
informal labor pools. Back in the great Depression, we used to 
call them shapeups. And these are fundamentally undermining the 
industrial relations system in the United States. They are not 
a repeal of labor laws, they're a nullification of labor laws. 
There are no wage and hour laws in those shapeups. There are no 
occupational safety and health laws in those shapeups. As 
Professor Briggs says, there is simply exploitation there.
    Thanks so much for your attention.
    [The prepared statement of Dr. Harrington follows:]

                Prepared Statement of Paul E. Harrington

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Sensenbrenner. Thank you very much.
    Members will be recognized under the 5-minute rule. That 
applies to us as well as to the witnesses, and the Chair will 
recognize himself first.
    There have been a lot of questions asked why there is no 
Conference Committee between the Senate and the House. The 
House passed its bill in December and sent the papers to the 
Senate. The Senate passed its bill in May and failed to send 
the papers to the House. And the only way a Conference 
Committee can be set up under the rules of the Congress is for 
the second House to have the papers and to move to send the 
bill to conference. So it can't be done in the House of 
Representatives because the Senate, for reasons of their own, 
didn't send the papers over.
    Now one of the problems in the Senate Bill is that it 
raises about $50 billion in new taxes. The Constitution is 
quite plain in stating that tax legislation has to originate in 
the House of Representatives and that means if the Senate tries 
to pass a new tax in the Senate Bill, the House just sends it 
back with a blue slip stating that the Constitution has been 
violated. And that's what would happen if we did get the 
papers, because the Senate was told before they passed their 
bill that there was a Constitutional problem, and they kept the 
taxes in anyhow.
    Now I'm one of those that believes in market economics. The 
free enterprise system is based on market economics and the 
market works. And I think it is a given fact that illegal 
immigrants will work for less money than citizens or legal 
immigrants who have green cards, which are work authorizations. 
I also believe very strongly that there's no job an American 
won't do if they're paid enough. And I believe that the 
testimony of all four of you, at least expressly or implicitly, 
states that Americans will take those jobs if they're paid 
enough.
    So the issue of exploitation of employers of the illegal 
immigrant workforce is one of the engines that drives the 
magnet to bring illegal immigrants across the border, because 
there are jobs available. The 1986 immigration reform bill made 
it an offense for an employer to hire an illegal immigrant. But 
the verification system, Mr. Parra, as you very correctly 
state, has been based upon fraudulent documents, Social 
Security numbers that are made up, those that are obtained 
through identity theft, documents that you can buy very close 
to any college campus, but it does say you're over 21 if you 
buy them there, but otherwise, on street corners.
    One of the things that the House-passed bill contains is a 
computer verification of Social Security numbers. So if 
somebody is using a made-up number or one that has another name 
on it, the computer would flag that and tell the employer. Do 
you support that system in the House Bill, Mr. Parra?
    Mr. Parra. I'm not familiar with that in the House Bill, I 
know about the Senate and what they're trying to get done and 
what they're trying to accomplish. And that has a much more 
comprehensive----
    Mr. Sensenbrenner. Well, let me explain in this area, 
because this is the key to dealing with the problem that we're 
talking about at the hearing today. The House Bill requires the 
verification of new employees within 2 years. And it's going to 
take that amount of time to get the Social Security 
Administration's database up to snuff to be able to do that. 
The House Bill also requires the verification of existing 
employees within 6 years. The Senate Bill doesn't do that.
    Now the effect of not verifying existing employees is that 
a current illegal immigrant employee would be able to keep 
their job forever, but worse, in my opinion, that employee 
would become an indentured servant because they would not be 
able to get a new job because their bad Social Security number 
would end up being caught when they applied for a new job. So 
the Senate Bill ends up having all the illegal immigrants who 
are working now essentially becoming indentured servants.
    Do you think that's right?
    Mr. Parra. Sounds like a pointed question to me.
    Mr. Sensenbrenner. Okay. Well, I just want to be clear.
    Mr. Parra. I think that that wouldn't be right. But, you 
know, I'm thinking that the Senate has either incorporated that 
in its planning and that you need to work together with the 
Senate.
    Mr. Sensenbrenner. Well, the reason the Senate did that is 
that they've bought the Chamber of Commerce line on that, 
because they're the ones that are making out from exploiting 
the labor of illegal immigrants.
    Now the House Bill, that I've been criticized for being too 
harsh on, also increases the fine for the first offense of 
hiring an illegal immigrant from $100 per illegal immigrant to 
$5000 per illegal immigrant. Now $100, you know, is part of the 
cost of doing business nowadays. If a fine is to be effective, 
it's got to be high enough to act as a deterrent. Do you 
support increasing the fines for people who hire illegal 
immigrants?
    Mr. Parra. Again, whether that--how does that compare with 
the Senate? I really think that, Mr. Sensenbrenner, you need to 
talk to the Senate and work together on this on a bipartisan 
basis.
    Mr. Sensenbrenner. Oh, I understand.
    Mr. Parra. --work together on this.
    Mr. Sensenbrenner. My time has expired. The gentleman from 
Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    I'm thrilled with this hearing. We find out that, first of 
all, the Chamber of Commerce doesn't get it. I thought they 
usually sided with my Republican friends, but that's not 
happening.
    And then I look at the title of the Bill, the Reid-Kennedy 
Bill. Well, friends, Mr. Reid is not a cosponsor, Mr. Kennedy 
is; but I was just handed a list by staff of the cosponsors of 
this legislation that came out of the Senate. And outside of 
Kennedy, there are five Republican Senators that support it--
Senator Brownback, Senator Graham, Senator Hagel, Senator 
Martinez and Senator McCain. It started out the McCain-Kennedy 
Bill and Mr. Reid is finally getting some credit that he 
doesn't deserve in this case.
    Now there's something else that's beginning to pique my 
curiosity. There are 23 Republican Senators that apparently 
don't understand what my Chairman has been laboring to get them 
to get through their noggins for many, many months, including 
the senior Senator from Indiana, Chairman Hostettler, Senator 
Lugar, voted for this Bill. Thirty-six Republicans voted for 
this Bill that is being a subject of examination.
    Now I had the idea that you had, shouldn't we just get in 
touch with Bill Frist, Dr. Frist, the Majority Leader in the 
Senate, Republican, or Mitch McConnell, the Whip in the Senate, 
from Tennessee, Republican? We've had all these hearings around 
the country, why don't we just meet with them and say look, 
fellows, this may come as news to you but when you pass a bill 
in the House and then you pass a bill in the Senate and there 
are differences, you have a conference. Now this was pretty 
advanced legislative procedure--you have a conference and you 
work it out.
    Let me just ask the witnesses, would you have any objection 
if that initiative were taken and that they would come together 
and they would agree? Mr. Parra, what do you think?
    Mr. Parra. I think it's an excellent idea and I think 
that's what the people want, they want progress on this and 
they want you to work together.
    [Applause.]
    Mr. Conyers. I said that there were 36, there were only--
there are not that many Republican Senators that supported it, 
there was only 23.
    Dr. Camarota, what is your view about us coming together in 
that spirit?
    Mr. Camarota. Let me answer it this way----
    Mr. Conyers. Well, wait a minute, I don't want you to 
answer it that way, I want you to say yes or no.
    [Laughter.]
    Mr. Conyers. I've only got 5 minutes.
    Mr. Camarota. Is this like have I stopped beating my wife 
yet?
    Mr. Conyers. No.
    Mr. Camarota. I think the answer--the bottom line is----
    Mr. Conyers. I need to get an answer.
    Mr. Camarota. --the number of people who think it's a good 
idea to triple legal immigration and grant legal status to 12 
million----
    Mr. Conyers. Okay.
    Mr. Camarota. --is very small outside of Washington.
    Mr. Conyers. Stop. You didn't answer the question.
    Dr. Briggs, let me try you. In the spirit of friendship and 
bipartisanship, I come here to help get something done in the 
Congress; what do you think, could we possibly get together and 
begin to work these things out? I wouldn't mind all of you 
witnesses coming to the conference, they're not secret 
conferences, and help advise the Senators and the House Members 
what they should do. What do you think?
    Mr. Briggs. Well, ultimately of course it has to happen and 
it will happen some day, that you all will come together. So I 
mean it's----
    Mr. Conyers. But I mean sooner rather than later. I'm not 
talking about ultimately. I mean----
    Mr. Briggs. I would like to see a bill passed this year. 
I'd like to see it emphasize enforcement. I have very little 
support for 2611 and that's in my testimony that I didn't get 
to. But obviously you're going to come together 1 day and the 
sooner the better.
    Mr. Conyers. Right. Look, somebody is going to have to give 
up something. And let me just ask Mr. Harrington and I will 
give up my time, Mr. Chairman. What do you think, sir?
    Mr. Harrington. Well, Congressman, I would simply say this, 
I come from a State where the entire Congressional delegation 
is Democratic and if you give me a chance and let me work them 
over a little bit, then we can have the hearing after that.
    Mr. Conyers. Well, that's cool, that's what we do all the 
time, that's wonderful.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentleman from Indiana, Mr. Hostettler.
    Mr. Hostettler. Thank you, Mr. Chairman.
    Dr. Briggs, you have been very prominent in the labor 
movement over many decades. I don't think we got an opportunity 
to elaborate completely on your bona fides, but that would be a 
fair assessment of your career, would it not?
    Mr. Briggs. I hope so, yes.
    Mr. Hostettler. Well, thank you. And you mentioned a quote 
by Samuel Gompers and I'd like to elaborate on that because 
while there was a lot of discussion about the Chamber of 
Commerce and employers that utilize illegal aliens at much 
lower cost, which is a very significant concern for all of us, 
there is the other side of this, in that there have been 
strange bedfellows made in this.
    Mr. Briggs. Yes.
    Mr. Hostettler. So let's look at the quotes that I have for 
you. In 1981, the AFL-CIO declared ``Illegal workers take jobs 
away from American workers and they undermine U.S. wages and 
working conditions.'' Isn't that what you understand the 
position was back during the Hesburgh Commission?
    Mr. Briggs. Absolutely.
    Mr. Hostettler. Okay. But they have evolved in their 
opinion, and recently, 20 years later, John Sweeney, President 
of the AFL-CIO, said this, ``The only thing that is just is a 
general amnesty.'' And a general amnesty means what?
    Mr. Briggs. Basically those illegal immigrants here will be 
allowed to stay.
    Mr. Hostettler. Every one of them, correct?
    Mr. Briggs. Their status will be legal.
    Mr. Hostettler. A general amnesty. So the Chairman--the 
President of the American Federation of Labor, Congress--CIO, 
AFL-CIO, Industrial Organizations, has said recently that we 
need a general amnesty, is your understanding, even outside 
this quote?
    Mr. Briggs. Yes.
    Mr. Hostettler. On November 16, 2004, more recently, he 
said ``Undocumented workers already in this country and their 
families should be provided permanent legal status through a 
new legalization program.''
    Next slide, please. AFL-CIO spokeswoman Kathy Roeter, I 
believe is her name, summed it up, ``We are always looking for 
opportunities for people to join unions. That's our number one 
reason for working with immigrants.''
    Carl F. Horowitz, Director of the Organized Labor 
Accountability Project said ``A grant of lawful permanent 
resident status to as many illegal aliens as possible would 
mean more dues collections and benefit plan contributions.''
    And then summing it up very appropriately I think is Mike 
Garcia of the Service Employees Union who said, ``We will lead 
the Nation in the fight for legalization.''
    And so a cross--fairly well a cross section of labor, 
including the very upper echelon of the AFL-CIO, is pushing 
very hard for a general amnesty and a legalization of the 
millions of illegal aliens here for, in their own words, 
expanded dues collection and benefit plan contributions.
    Remember, Dr. Briggs, the last time we got together, the 
Democrat Minority had brought forward a representative from the 
Cato Institute.
    Mr. Briggs. Yes.
    Mr. Hostettler. Do you remember that?
    Mr. Briggs. I sure do, I'll never forget it.
    Mr. Hostettler. And your testimony was very intriguing, I 
have it before me here. But as we talk about strange bedfellows 
in this debate and we talk about the Democrat Minority calling 
Cato Institute at one similar hearing and today there's La Raza 
testifying for them--fairly divergent opinions, are they not--
--
    Mr. Briggs. Yes.
    Mr. Hostettler. --on a wide variety of issues?
    Mr. Briggs. Yes.
    Mr. Hostettler. Then you have the Chamber of Commerce, who 
opposed the House Bill, we have the AFL-CIO, who is calling for 
a general amnesty, not just individuals that are covered by the 
Senate Bill. In fact, the AFL-CIO is a little squeamish with 
the Senate Bill, are they not?
    Mr. Briggs. Yes, I think they oppose some of the guest 
worker provisions.
    Mr. Hostettler. Right, because there are actually 
restrictions in the Senate Bill.
    Mr. Briggs. Yes.
    Mr. Hostettler. I won't say that too loudly because they're 
not significant restrictions, but there are restrictions.
    And so there are these strange bedfellows that would, 
politically speaking, if you looked across the gamut, it would 
be, we might say, a no-brainer, for legislation similar to the 
Senate to be put into law. Would you not agree?
    Mr. Briggs. Yes.
    Mr. Hostettler. But there is this obstacle, is there not?
    Mr. Briggs. Yes.
    Mr. Hostettler. And that obstacle is the Republican 
Majority in the House of Representatives at this point, is it 
not?
    Mr. Briggs. Well, not all the Democrats supported the 
Senate Bill.
    Mr. Hostettler. That's an excellent point, there's a lot of 
Democrats up for reelection this time and there are a lot of 
Democrats that did not support the bill.
    But given the wide spectrum of support ideologically, from 
the AFL-CIO to the Chamber of Commerce, from Cato to La Raza, 
amnesty would almost be a given, if not for the obstruction of 
the Majority in the House of Representatives who want 
enforcement only at this time; is that not true?
    Mr. Briggs. Well, I don't know if it's obstruction, I mean 
a lot of these people, as I said in my written testimony, like 
the AFL-CIO, it's the leadership that's pushing this. I don't 
think the rank and file, I have a lot of contact with people in 
unions, I teach in the School of Labor and Industrial Relations 
and you see them all the time, and they don't support what the 
leadership does on these issues.
    Mr. Hostettler. And we will continue to be an obstruction. 
Thank you.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. I'd like to thank the 
witnesses for their testimony here as well.
    I'd direct my first question to Mr. Parra. In your 
testimony, you list five Nobel Laureates, but in your testimony 
you say that they contend that immigration is an economic plus. 
But many times in your testimony, you don't define the 
difference between legal and illegal immigration and it appears 
that in this testimony, that's the case. Could you let us know 
as to whether the five Nobel Laureates are speaking to illegal 
immigration or speaking to legal immigration?
    Mr. Parra. Yes, sure.
    Mr. Sensenbrenner. Please turn the mic on.
    Mr. Parra. I think they're speaking about immigration, 
because I think when you talk about illegal--in terms of how do 
you define this, how do you record it even in the census, how 
do you know, because a person that's undocumented or illegal 
may not show up as being undocumented.
    Mr. King. Then there----
    Mr. Parra. Now on the question of legal immigration, I 
think the same thing happens in other aspects of what's 
discussed here. Oftentimes, legal immigrants don't have the 
same rights as Americans.
    Mr. King. Thank you, Mr. Parra, my clock is ticking here. 
But I would submit that this testimony on legal immigration is 
not so relevant to our discussion here because we're talking 
about illegal immigration. That's been the issue.
    I would take us back over to Dr. Camarota. Do you have any 
numbers as to the percentage of illegals that are actually 
employed in the workforce, Dr. Camarota?
    Mr. Camarota. Most people think it's about six to seven 
million of the roughly 12 million. The rest are children or 
people who take care of young children or people who just don't 
work. And that's a typical sort of employment rate.
    Mr. King. Between 50 and 60 percent perhaps then?
    Mr. Camarota. Yeah, 50 to 60 percent hold a job, yes.
    Mr. King. Okay, and then Mr. Parra's testimony says nine 
million of 12 million illegals are working. Do you have any 
scenario in the workforce that would indicate that 75 percent 
of the illegals are employed?
    Mr. Camarota. No, I think Pew came out--and I basically 
came about 6.5 million, they say about seven of the 12, and I 
think that's what most people think,
    Mr. King. And Mr. Parra, I just ask this broader question, 
I think it's a broader question that is seldom asked and even 
more rarely answered, and that is, is there such a thing as too 
much immigration? And you could answer that in both categories, 
legal and illegal.
    Mr. Parra. It depends on the supply and demand situation in 
the country. It also depends on the globalization that's 
occurring and also the growth and what job growth is happening 
in the country. And those would be the things the Chamber of 
Commerce looks at and other people look--economists look at in 
terms of when they decide that yes, immigration is A-plus, that 
it is not a loss.
    Mr. King. Can there be too much immigration, can a Nation 
take on more immigrants than they can possibly assimilate or 
accommodate into an economy?
    Mr. Parra. You have to look at your economy and the growing 
economy.
    Mr. King. Is that possible though?
    Mr. Parra. Yes, if your economy needs that; yes.
    Mr. King. The answer then is yes?
    Mr. Parra. It depends on the economy.
    Mr. King. But the answer is yes that a Nation can take on 
too many immigrants to assimilate or----
    Mr. Parra. The question ``too many,'' what is too many? How 
much are too many?
    Mr. King. That is the question to you, Mr. Parra.
    Mr. Parra. Where is the cutoff?
    Mr. King. And I would submit----
    Mr. Parra. If you base it on politics, too many may be 
three.
    Mr. King. I'll direct this question then back Dr. Briggs, 
please.
    Mr. Briggs. Of course, it's interesting in economics, you 
have to be very careful, when economists talk about economic 
benefit. Most of the economic benefits that come from 
immigration; in fact all of them, are wage suppression. Wages 
are driven down and usually that's what's seen as a benefit. 
Now that's a benefit sometimes when seen from an economist's 
standpoint; it's not a benefit when you look at it for workers, 
public policy is there designed to drive down the wages of 
working people. Sometimes when people talk about the economic 
benefits, that's generally the benefit that they're driving at, 
but it's certainly--that's why we have immigration laws, so you 
can't take on too many people and immigration was found 
originally to be a threat to the public policy in the United 
States, that's why we started regulating it. You don't want to 
have open borders and let the market simply determine it 
independently.
    Mr. King. Thank you. Dr. Harrington.
    Mr. Harrington. Sir, the answer is particularly--I think 
there's two ways to think about this. One, what is the basic 
business cycle condition, you know, in the economy. In the last 
5 years, our job generation capacity has been quite poor, 
that's why we've seen the substitution of foreign-born for 
native-born workers in recent times.
    I think the second thing is that as Steve Camarota pointed 
out in his earlier paper, this tremendous occupational mismatch 
out there where we've flooded the bottom of the labor market 
and it has pushed down wages and caused exploitation of 
workers.
    So to me, the evidence is overwhelming that, yes, 
absolutely, we have by far too big an inflow.
    Mr. King. Thank you. Mr. Chairman, I yield back.
    Mr. Sensenbrenner. The gentleman from Michigan, Mr. 
Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    This is a first rate panel of witnesses. I'm very proud of 
all of you. Many of you have testified on this subject before 
in the Congress.
    What do you think is going to happen to these hearings now 
that we've already passed a bill, the Senate has already passed 
a bill. We're conducting an extraordinary procedure which I 
have never been a part of before. What do you think is going to 
happen with these hearings? Because we've had one very 
important suggestion made, that we contact the Majority Leader 
and the Whip, the Republican leaders of the Senate, and say 
please, gentlemen, when you pass a bill in one house and they 
pass it in the other body, you go to a conference, so couldn't 
we get to a conference. What do you think, Dr. Briggs? You've 
got as much seniority as anybody around.
    Mr. Briggs. Well, as I say, I think this issue is 
desperately important. In my testimony I say it's an 
imperative. I think it is the domestic issue. The Iraq War may 
be an international issue of the Nation, but this is the 
domestic issue. And I deeply feel it has got to be addressed. 
Yes, I would like to see action, I'd like to see--but I don't 
want to necessarily see anything happen. What I tried to say in 
my testimony is I wish that Congress would start with the 
Jordan Commission findings, which I think is the best study 
ever done of immigration, the most impartial, and may I point 
out that five members of the Jordan Commission were Democrats 
and four were Republicans, and they said the level of 
immigration was too high in 1997, it needed to be cut back by 
35 percent. No amnesty, no guest worker programs.
    Mr. Conyers. But can't we just start a conference and 
continue these discussions? I mean you've been a witness to 
conferences before, this is not brain surgery or anything 
complex. I mean you've got to move to the next step.
    We could hold these hearings and fill up the libraries with 
hearings. Here we are in this great State in this small city. 
Just think of how many other places we could go and have some 
really great hearings on this. But none of it, I don't think, 
is going to amount to much until we get to the conference. And 
I know you hope that we get there and do something 
constructive.
    Now let me ask one question here that has been bothering me 
and I want to get it in right away. How do we get these 11 
million illegals to leave? What's the best plan? How are we 
going to round them up, because some people have talked about 
attrition, well that would be 50 years, I don't know. We can't 
wait for attrition to kick in. But what about self-deportation? 
What is the likelihood of these millions of folks rumbling 
around underground economy, what's the likelihood of them 
coming forward and say okay, you got me. You passed the House 
Bill and it says that we've got to report to be deported, we 
also were made felons in the process. What do you think the 
likelihood is of 11 million people coming out of the shadows to 
get kicked out and sent back to wherever they came from?
    Mr. Briggs. Well, the testimony--the purpose is and what 
the law is to get them out of the work site and if you get them 
out of the work site, that is the focus. And then----
    Mr. Conyers. Okay, so we're not going--we're going to leave 
them here?
    Mr. Briggs. No, no. Well, I'm not saying people----
    [Laughter.]
    Mr. Briggs. Look, that's the law right now. The law is they 
don't work. If people want to stand on the street corners and 
look at Americans----
    Mr. Conyers. Are you familiar with the fact that the House 
Bill suggests that they don't stick around after they come off 
their job, that they get back to the borders or further. I've 
got a problem with that.
    Let me try this with you, Mr. Parra. What's the process 
that you think might be helpful? Do you think that they will 
self-deport?
    Mr. Parra. No, I don't think people will self-deport.
    Mr. Conyers. Do you think anybody would self-deport?
    Mr. Parra. I don't think anybody would self-deport.
    Mr. Conyers. Out of all 11 million, wouldn't a few hundred 
come forward and confess, plead for mercy? You don't think so?
    Mr. Parra. No.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentleman from Indiana, Mr. Hostettler.
    [Applause.]
    Mr. Hostettler. Thank you, Mr. Chairman.
    Dr. Camarota, can you give us an idea of how many illegal 
aliens self-deport every year?
    Mr. Camarota. Yeah, it looks like about 150,000 people go 
home on their own each year and about 50,000 illegal aliens are 
deported each year, so about 200 right now.
    Mr. Hostettler. So three times as many self-deport as are 
deported forcibly?
    Mr. Camarota. Yes, that's according to INS estimates, yes.
    Mr. Hostettler. Thank you. And so self-deportation happens 
by the hundreds of thousands, given the fact that there are 
millions of jobs in America that some suggest American won't 
do.
    So if we take the motivation away from these individuals by 
aggressively enforcing the immigration laws, the Center for 
Immigration Studies has suggested that--in a study recently, 
that attrition, that leaving and going to the job that they had 
in the place that they left--because we actually heard 
testimony in San Diego that, according to one professor that's 
done decades of research in this, that in fact the unemployment 
rate of individuals coming into the United States to get a job 
is actually between four and 5 percent over the decades of 
studies that he's done. The unemployment rate in those 
individuals before they come to America for a job is better 
than the unemployment rate in the United States. Is that----
    Mr. Camarota. Right. There's this mistaken notion that 
everyone is fleeing desperation.
    Mr. Hostettler. Yeah.
    Mr. Camarota. But all the research shows most people who 
come actually already had a job, they just wanted higher wages, 
which is perfectly understandable. But the point about 
attrition through enforcement is that people do have a life to 
return to, that is, the job they used to have.
    Mr. Hostettler. Not only the job, but in many cases their 
families.
    Mr. Camarota. Are often still there.
    Mr. Hostettler. So if they don't have a job in America 
because we're aggressively enforcing the law and they left a 
job in their native country, it's highly likely that they will 
in fact self-deport to be reunified with their family and to 
reacquire a job in the economy that they left.
    Mr. Camarota. It's a perfectly reasonable assumption, sure.
    Mr. Hostettler. Thank you.
    Let me ask you, Dr. Camarota, what will happen to illegal 
immigration levels if we pass a second round of amnesty similar 
to the Immigration Reform and Control Act of 1986?
    Mr. Camarota. Well, I mean, the available evidence suggests 
that we'll just supercharge illegal immigration. See, there's a 
mistake about how people think about immigration, it's driven 
largely by networks of family and friends. The larger legalized 
population in the United States, this creates even greater 
contact and a greater draw back in the home community. Most 
people don't just wake up in the morning and say I think I'd 
like to go to America. Typically they have a friend, a brother, 
a sister, a cousin who says I can get you a job, I know how to 
get an apartment. If you legalize all the illegal aliens here, 
not only will you convey to everyone that America just doesn't 
take its laws seriously, but also you will create a whole new 
set of networks that would then draw millions more into the 
United States. And that's exactly what happened last time. 
Legal immigration is double what it used to be and the number 
of illegal aliens in the United States is probably close to 
triple what it was when we had our last amnesty, because of 
this phenomenon.
    Mr. Hostettler. And it's not just from individuals from 
Mexico or Central or South America, the number of other than 
Mexicans, OTMs, that are coming across the border is 
accelerating substantially, is it not, over the last few years?
    Mr. Camarota. Yes. Obviously the largest share come from 
Latin America, but illegal immigration--you know, we have 
hundreds of thousands of illegal aliens from Asia, the Middle 
East and so forth, yes.
    Mr. Hostettler. And so if the word goes out that a second 
round of amnesty has been delivered, won't that fuel not only 
illegal immigration into our country from people indigenous to 
south of the border, but it will send a message to the rest of 
the world that if you come here from eastern Europe, from Asia, 
from fill-in-the-blank, that if you make it to Mexico, then you 
can make it into America and ultimately be rewarded with a path 
to citizenship and at least a good job.
    Mr. Camarota. Yes, because you want to get in line for the 
next amnesty, of course.
    Mr. Hostettler. Thank you very much.
    Dr. Harrington, I want you to once again stipulate--
reiterate the points you made with regard to net new jobs 
created over the last 5 years for native-born men.
    Mr. Harrington. Yeah, for native-born men over the last 5 
years, all the--there has been no employment increase among 
native-born men between 2000 and 2005. The number of native-
born men in 2005 that have a job has actually declined relative 
to its figure in 2000. That all the gains we had in male 
employment were among recent immigrants, that is, recent 
immigrant males that came into the United States after 2000.
    Mr. Hostettler. And that's historic.
    Mr. Harrington. That's historic----
    Mr. Hostettler. That's unprecedented?
    Mr. Harrington. This is unprecedented in the history of 
American labor markets.
    Mr. Hostettler. Thank you very much. I yield back the 
balance of my time.
    Mr. Sensenbrenner. The gentleman from Iowa, Mr. King.
    [Applause.]
    Mr. King. Thank you, Mr. Chairman.
    I'll direct my first question to Dr. Harrington. Do you 
have any numbers, Dr. Harrington, on percentage of dropout 
rates for American students and the trend of that over the last 
say couple of decades?
    Mr. Harrington. Yes, sir, we did some work for a group 
called the Business Round Table in Washington, D.C. where we 
estimated the overall size of the dropout population in the 
United States and we estimated that the status dropout rate for 
people age 16 to 21 in the U.S. is about 30 percent, ranged 
somewhere between 25 and 30 percent. The Manhattan Institute in 
New York City, using an entirely different methodology, also 
estimated a dropout rate in the United States of 25 to 30 
percent.
    Mr. King. I saw that on the news one morning a couple of 
months ago and it was an astonishingly high rate and when I 
reflect back on what that means about those American students 
that are dropouts from high school and what their opportunities 
are if the low skill jobs are being swallowed up exclusively or 
statistically at least exclusively, by the influx of uneducated 
illegals.
    Another question that I would direct, I think to you, Dr. 
Harrington, is do you have an opinion on what's essential work? 
And I think of it in these terms, if wages are being driven 
down and I can think in terms of a constituent I have that has 
a 24-row planter and he's as technical as you can be and he 
markets on the internet, he's an ag producer and he bought land 
in Brazil and he has 96 one-row cultivators down there, 96 
people with a hoe, that he pays $3.00 to $4.00 a day. I've 
watched him use technology in Iowa, and cheap labor parks his 
equipment in Brazil. This phenomenon of non-essential work, 
when you have people that will work for say $3.00 to $5.00 an 
hour, to pick a number, is there more work that gets done 
that's hired that wouldn't be done otherwise, that people would 
either do themselves or let go? And how much of this percentage 
of work that's being done by illegals in this country is 
essential versus some non-essential work?
    Mr. Harrington. Well, I think the evidence is pretty clear 
on this, that at the very bottom of the labor market, the 
contribution to output and GDP is quite low because the wage 
rates are low. So by definition, it's just not a very 
productive job. And it means a couple of things, it means that 
firms are slower to engage in technological innovation because 
they substitute low wage labor for more sophisticated 
technologies. That may, in the long run, actually inhibit 
productivity in the U.S.
    But the second thing that happens is we're just seeing a 
lot of growth in off-the-books jobs, they're not really jobs. I 
was speaking to a construction worker and he said to me there's 
plenty of work out there, but not many jobs. And that means 
we're creating this whole informal, illegal sector of the 
economy that's really undermining work. And I would consider 
all that not only inessential, I would consider that illegal 
and immoral.
    Mr. King. I just paint a scenario here in a broader 
picture, what's a country to do? I firmly believe that we 
should establish an immigration policy designed to enhance the 
economic, the social and the cultural well-being of the United 
States of America. And that should be the mission for every 
country, for that matter and it has to be----
    [Applause.]
    Mr. Sensenbrenner. The Chair has to remind the audience 
again about the rules about expressing support or opposition to 
what's said. Please follow them.
    The gentleman from Iowa.
    Mr. King. Thank you, Mr. Chairman.
    I'd ask you to look at this Nation as an overall economic 
vehicle that we have as essentially a huge lifeboat with about 
300 million people in it. And you need people to row and people 
to bail and people to chart the course and somebody to cook the 
means, folks out there that essentially put their hands to the 
task of helping to drive this economic engine. And I look also 
across this 300 million people and out of them, we have 9.3 
million between the ages of 16 and 19 who are simply not in the 
workforce, there are another 4.3 or so million on welfare, 
there are another--oh, let's see, there's a number between 65 
and 70, there are about 4.5 million not in the workforce, kind 
of our vigorous senior citizen age there. When you add it all 
up including retired, you have 77.5 million non-working 
Americans. If you take the retirees out of there and pick that 
age, that vital age between 20 and 65, you're over 60 million 
non-working Americans. Now what kind of a Nation, if we were 
rowing this lifeboat along and we decided we needed some more 
people at the oars, and that's a questionable issue listening 
to this testimony this morning, but we pull across another 
continent somewhere and say let's load some more oarsmen on 
here because we need them versus take some people out of 
steerage, out of those 77.5 million that are not contributing 
to this economy and put them to the oars, put them to bailing, 
what's that mean to the overall picture of our economy when 
you're bringing on more people when you've got 77.5 million 
people not working in America? And I direct that to Dr. 
Camarota, please.
    Mr. Camarota. Right, and the trends look terrible. The 
share of less educated workers holding a job has declined 
dramatically in recent years. If all jobs went to the 
immigrants, it wouldn't necessarily be all bad news if the 
native pool was shrinking. It's actually growing and yet what's 
happening is these people are leaving the labor force entirely. 
So to stay with your analogy, now they're becoming increasingly 
dead weight. And that can't be good to have a lot of young men 
in particular standing around on street corners idle.
    Mr. King. Dr. Briggs, quickly, please.
    Mr. Briggs. Well, I would certainly agree with that, but 
please also remember that all these entry level jobs, almost 
all of us at some time work in those entry level jobs, I 
certainly did. And these entry level jobs are not jobs that are 
just for low educated persons. Many people, teenagers, young 
people, that's how you begin. I set pins in a bowling alley, 
they don't do that any more, thank God. But that was how you 
start, that starts you on the trail of work and you've got to 
have access to so-called low income jobs, whether you're rich 
or poor. Many people work in this labor market, it's not just 
the low income people who are perpetually there. They are very 
important and I'm deeply concerned with, but a lot of people 
get their entry level work experience in these low entry level 
jobs and that's the way they gradually escalate themselves up 
to a worker, a full time worker.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The Chair will recognize himself now to wrap up the 
hearing.
    Mr. Conyers and I were in the Congress in 1986 when the 
Simpson-Mazzoli Immigration Reform and Control Act was passed. 
And I voted against it because I didn't think it would work. 
And I think in 20 years experience, a no vote was the correct 
one.
    The linchpins of the Simpson-Mazzoli Bill were to give 
amnesty to the illegal immigrants who were in the country at 
that time and then to prevent more illegal immigration by 
setting up the employer sanction system.
    Well, the amnesty was hugely successful and a lot of it was 
based upon fraudulent documents, according to then Attorney 
General Edwin Meese. And employer sanctions were never 
enforced.
    And I think what this hearing has done today is to 
emphasize that there is going to be no immigration reform bill 
passed that will be effective, whether it's the Senate Bill or 
the House Bill, unless employer sanctions are enforced. And 
that means having a verifiable system to flush out the bad 
documents. It also means increasing the fines on those 
employers who do hire illegal immigrants, so that the fines are 
high enough to act as a deterrent. And with the House Bill and 
the $5000 apiece fine that I've referred to earlier, all you 
need to do is to have a couple of raids of employers who have 
500 or more illegal immigrants. That's a $12.5 million fine and 
that will make front page news in every newspaper in the 
country and start acting as a deterrent to people doing that in 
the future.
    I hear an awful lot about why the bill hasn't gone to 
conference. That's the Senate's fault, it's not our fault. And 
I said that earlier as well. The Senate also adopted a 124-page 
amendment in the middle of the night right before they passed 
the bill. And I'm one who believes that the best disinfectant 
is sunlight and there's not a heck of a lot of sunlight in 
Washington, D.C. and there's a lot more sunlight in Evansville 
and in Dubuque and in El Paso and in San Diego than there is in 
Washington, D.C. And frankly, that's why we're having these 
hearings here.
    The testimony that we've heard today has not been given in 
the Senate or the House, about the devastating impact of 
illegal immigration on employment, particularly on employment 
of low skilled people who are just entering the labor force. 
The illegal immigrants are taking their jobs away. And we 
really can't complaint about youth crime and drugs and all of 
the other illegal and bad social activities unless we provide 
jobs for the kids who are getting out of our schools, hopefully 
with a diploma, but including those that are not.
    And I'm one who believes that it's better to pass no bill 
than a bad bill. The Senate Bill, in this respect, which I 
think is the linchpin of any effective immigration reform law, 
is sorely lacking because it doesn't deal with the issue of the 
bad actors who are employing illegal immigrants, largely off 
the books and paying them substandard wages and in many cases 
exploiting them.
    I would hope that that's something that people of good 
will, whether they're for or against either of our bills, will 
agree on. And I think if we don't deal with this issue, we're 
going to end up striking out and having another problem that 
will be even worse that the country will have to face.
    And I'm opposed to amnesty. I think amnesty is wrong 
because it awards somebody with citizenship eventually who has 
broken our law, in some cases to the detriment of those 
potential immigrants who wish to comply with our law, but we've 
had seven amnesties since 1986. If amnesty was the answer, 
those seven amnesties would have ended up solving the problem 
and we wouldn't be here today and I'd be on my boat in the lake 
west of Milwaukee in Wisconsin rather than working here in 
Evansville, Indiana.
    But I'm also deeply concerned about the fact that the 
Senate Bill does goofy things like requiring people in private 
sector employment to pay amnestied illegal immigrants more than 
native workers and also the business of retroactive Social 
Security benefits of illegal benefits who used fake Social 
Security numbers to get jobs, which will be an 80 to 100 
billion dollar hit on the Social Security trust fund that I 
think all of us realize is not all that healthy.
    So I'd like to thank our witnesses today. I'd like to thank 
all of you for coming to listen to this hearing as well as my 
colleagues from near and far who have come to participate. I've 
learned a lot at this hearing, I hope that all of you, whether 
you're on this side of the dais or the other side of the dais, 
have also learned a lot.
    So thank you again for participating in a very constructive 
hearing.
    Mr. Conyers. Mr. Chairman.
    Mr. Sensenbrenner. Yes.
    Mr. Conyers. Could I ask unanimous consent that the 
American Immigration Lawyers Association letter be included in 
the record.
    Mr. Sensenbrenner. Without objection. And without 
objection, the Committee stands adjourned.
    [The material referred to is published in the Appendix.]
    [Whereupon, at 11:31 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Letter from the Associated Builders and Contractors, Inc., submitted by 
the Honorable F. James Sensenbrenner, Jr., a Representative in Congress 
 from the State of Wisconsin, and Chairman, Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Letter from the American Immigration Lawyers Association, submitted by 
the Honorable John Conyers, Jr., a Representative in Congress from the 
   State of Michigan, and Ranking Member, Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Prepared Statement of the Kentucky Coalition for Comprehensive 
   Immigration Reform and the Central Kentucky Council for Peace and 
                                Justice

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
